<html>
<title> - THE PATH TO FREEDOM: COUNTERING REPRESSION AND STRENGTHENING CIVIL SOCIETY IN CUBA</title>
<body><pre>[Senate Hearing 112-603]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-603

 
  THE PATH TO FREEDOM: COUNTERING REPRESSION AND STRENGTHENING CIVIL 
                            SOCIETY IN CUBA

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                  CORPS, AND GLOBAL NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      0Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
76-690                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS          

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE          
             CORPS, AND GLOBAL NARCOTICS AFFAIRS          

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            MARCO RUBIO, Florida
JIM WEBB, Virginia                   MIKE LEE, Utah
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia
                                     JOHN BARRASSO, Wyoming

                             (ii)          

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Ferrer Garcia, Jose Daniel, leader, Cuba Patriotic Union, 
  Santiago De Cuba, Cuba.........................................    27
Fonseca Quevedo, Sara Marta, spokesperson, National Civic 
  Resistance Front, Cuban Pro-Democracy Leader, Havana, Cuba.....    30
Gonzalez, Normando Hernandez, fellow, National Endowment for 
  Democracy, former Cuban political prisoner, Washington, DC.....    18
    Prepared statement...........................................    24
Jacobson, Hon. Roberta, Assistant Secretary of State for Western 
  Hemisphere Affairs, U.S. Department of State, Washington, DC...     7
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senator 
      Benjamin L. Cardin.........................................    41
    Responses to questions submitted for the record by Senator 
      Marco Rubio................................................    42
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Perez Antunez, Jorge Luis Garcia, political dissident, Havana, 
  Cuba...........................................................    32
Rubio, Hon. Marco, U.S. Senator from Florida, opening statement..     5

                                 (iii)

  


  THE PATH TO FREEDOM: COUNTERING REPRESSION AND STRENGTHENING CIVIL 
                            SOCIETY IN CUBA

                              ----------                              


                         THURSDAY, JUNE 7, 2012

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
         Peace Corps, and Global Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the subcommittee) presiding.
    Present: Senators Menendez and Rubio.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. The hearing on the Western 
Hemisphere Affairs Subcommitte will come to order.
    First of all, our apologies to the Secretary and to the 
other witnesses. We had a vote on the floor and so we just came 
from that.
    Welcome to our hearing on ``The Path to Freedom: Countering 
Repression and Supporting Civil Society in Cuba.'' A title that 
is more than a mere designation of why we are here, but a 
statement of what we must do for the people of Cuba and how we 
can get there.
    I want to thank our panelists for coming today. I look 
forward to hearing their analysis and ideas on how we move down 
the path to freedom.
    I want to acknowledge the wife of Alan Gross, Judy Gross, 
who is with us here today. And we are in solidarity with her 
and her husband and believe that he should never have been 
incarcerated and that he should, in fact, be free to come home 
to his family.
    In addition to the Assistant Secretary for the Western 
Hemisphere Affairs, Roberta Jacobson, and former political 
prisoner, Normando Hernandez, we will have the unusual 
privilege of being joined by three individuals who have time 
and again risked their personal freedom to advocate for basic 
civil and human rights for their fellow Cubans.
    This morning, they will again, simply because of their 
willingness to express their opinions at this hearing, put 
their personal freedom at risk by telling the truth about 
conditions in Cuba and providing testimony before this 
committee via digital videoconference and telephone. Their 
participation is so sensitive that we were unable to include 
their names on the original hearing notice and only have this 
morning, following confirmation of their arrival at the U.S. 
Interests Section in Havana, issued a new hearing notice.
    We are deeply grateful for their courage and their 
commitment to coming forward to speak about the realities of 
life within Cuba and for their advocacy for the freedom of the 
Cuban people. They are Jose Daniel Ferrer, who will speak to us 
by phone, and Jorge Luis Garcia Perez ``Antunez'' and Sara 
Marta Fonseca.
    I must take this opportunity to thank the committee and the 
State Department for their assistance in facilitating the 
technical aspects of this hearing in D.C. and in Havana and for 
providing interpretation services as well.
    Let me begin by providing some context for today's hearing. 
I am at once both encouraged and discouraged by conditions 
inside of Cuba. I am encouraged by the tremendous growth of 
civil society and the thousands of brave Cubans who every day 
stand their ground despite harassment, the loss of jobs, 
rations, and in many cases, their ultimate freedom as 
retribution for their actions and by those who speak their 
minds despite recurrent physical abuse, arbitrary arrests and 
detentions.
    At the same time, the arrests and detentions this year 
alone are now more than 2,400, and that includes 1,158 
documented arrests just in the month of March, a level not seen 
in Cuba since the 1960s. The tremendous increase in repressive 
actions against the Cuban people, recognized this week by the 
U.N. Committee Against Torture, reveals the growing level of 
discontent in Cuba and the inability of the regime to control 
this growing movement.
    The growth of civil society in Cuba is, in fact, 
extraordinary, particularly if you consider the constraints 
faced by activists living on an island in which they are 
subject to constant observation, continuous harassment, and 
frequent detentions by Cuban security forces, while having 
limited means of communicating amongst themselves because the 
island has virtually no free Internet capacity, and the 
internal Intranet is obviously heavily monitored and completely 
controlled by the regime.
    It is even more impressive if you consider that the roots 
of today's movement began to form inside Cuban prisons only in 
the late 1980s and early 1990s as the Soviet Union collapsed 
and the regime was weakened by the lack of Soviet 
subsidization. The Cuban Committee for Human Rights fomented 
the first seeds of civil discontent, basing its platform on the 
Universal Declaration of Human Rights.
    From there, the movement grew into 135 groups that made up 
the umbrella group, the Concilio Cubano, which declared its 
``determination to struggle for an absolutely peaceful and 
nonviolent transition to a democratic state of law, rejecting 
all hatred, violence, or revenge, and equally embracing all 
Cubans everywhere.''
    The Concilio's plans to hold a meeting on 24 February 1996 
were blocked by the regime, which arrested many of the leading 
activists, but it was in this moment that the regime won the 
battle, but lost the war. The Concilio's brave actions became 
legendary on and off the island, and their actions inspired 
others to stand up and face the regime.
    Across the island, a diverse collection of liberation 
groups and freedom fighters sprang to life. They included 
women's groups, human rights groups, associations of 
independent lawyers and journalists, artists, and librarians.
    Again and again, this pattern was repeated when the regime 
sought to crush the supporters of the Varela Project, a 
petition calling for a vote in favor of freedom of association 
and expression, freedom of the press, free elections, the right 
to operate private business, and an amnesty for political 
prisoners and other activists on March 18, 2003, an event known 
as the ``Black Spring.''
    Cuba arrested and imprisoned 75 activists at that time, 
including Normando Hernandez, who is with us today, and Jose 
Daniel Ferrer Garcia, who will be calling on the phone in a 
short while. Normando was exiled to Spain after serving 7 harsh 
years as a political prisoner in Cuba. Jose Daniel served 8 
years before being provided conditional release in March 2011.
    Those 75 arrests again emboldened the opposition movement, 
leading to the creation of the Damas de Blanco, which has 
become a national symbol for a unified demand for freedom from 
repression and tyranny. If the past is truly prologue, this 
current wave of repression will only serve to further embolden 
the movement, bring others into the cause, and eventually lead 
to the freedom of the Cuban people.
    The purpose of today's hearing is to call attention to the 
wave of repression taking place inside of Cuba, and at the same 
time, celebrate the courage of thousands of activists living on 
the island, the thousands of Cubans who every day stand against 
the regime, who every day put their personal freedom at risk 
for the freedom of their countrymen and their nation.
    Let me close with a few facts that we have distributed to 
the audience. According to the 2011 State Department human 
rights report, ``The principal human rights abuses in Cuba were 
abridgement of the right of citizens to change their 
government; government threats, intimidation, mobs, harassment, 
and detentions to prevent citizens from assembling peacefully; 
a significant increase in the number of short-term detentions, 
which in December rose to the highest monthly number in 30 
years. Most human rights abuses were official acts committed at 
the direction of the government, and consequently, the 
perpetrators enjoyed impunity for their actions.''
    According to Freedom House, Cuba is ranked 190 out of 197 
countries in terms of press freedom, right between Syria and 
Iran. During just the month of March 2012, there were 1,158 
documented political arrests by the Castro regime in Cuba. 
According to the Cuban Commission for Human Rights, this 
represents ``the highest monthly number of documented arrests 
in five decades.''
    Cuba has also seen its share of martyrs on this journey in 
the deaths of Orlando Zapata Tamayo and Wilman Villar after 
lengthy prison hunger strikes and that of Juan Wilfredo Soto 
after a beating by security officials.
    Amongst the most recent detainees are Rogelio Tavio Lopez, 
who was arrested March 2 on charges of public disorder and 
actions against the norm in the development of a minor.
    Niurka Luque Alvarez and Sonia Garro Alfonso of Damas de 
Blanco, who were arrested in mid-March during a wave of arrests 
leading up to the visit of Pope Benedict XVI to Cuba.
    Jorge Vazquez Chaviano, who was arrested on March 27 as he 
stepped out of his home in Sagua la Grande, Villa Clara, in 
hopes of traveling to Havana to attend Pope Benedict's mass.
    Bismarck Mustelier Galan, an activist with the Patriotic 
Union of Cuba, who was arrested April 1. Prosecutors are 
seeking a 2-year prison sentence against him.
    Danny Lopez de Moya, who was sentenced in April to 18 
months in prison after he was arrested in February for wearing 
a shirt denouncing the Castro regime for the deaths of 
political prisoners Pedro Luis Boitel, Orlando Zapata, and 
Wilman Villar Mendoza.
    And 10 political prisoners are currently on hunger strike 
in the Guantanamo prison, demanding Cuba follow international 
standards for prisons. They are Leoncio Rodriguez Ponce, Andy 
Frometa Cuenca, Jesus Manuel Pena Ramirez, Alfredo Noa 
Estopinan, Miguel Matos Gainza, Leonardo Cantillo Galvan, 
Heriberto Tellez Reinosa, Juan Humberto Becerra Alfonso, 
Rolando Tudela Iribar, Yoandri Lafargue Rober.
    Their courage, their sacrifice, is what we can never forget 
in our dealings with a dictatorial, repressive regime that has 
ruled Cuba with an iron hand since the middle of the last 
century. Still today, 23 years after the fall of the Berlin 
Wall, Cubans remain trapped in a closed society, cut off from 
the advancements of the world, repressed, threatened, fearful 
of saying or doing something that will land them in prison, 
often for years.
    So we urge every American to remember all the victims of 
Fidel Castro and his brother Raul, just as we remember all 
those around the world who have suffered and died under the 
iron fist of other repressive dictatorships--in Cambodia under 
the Khmer Rouge; in Iran under the Ayatollah; in Iraq under 
Saddam Hussein; in Bosnia under Milosevic; and in the brutal 
genocide in Darfur.
    As I have said many times before, the Cuban people are no 
less deserving of America's support than the millions who were 
imprisoned and forgotten in Soviet gulags, lost to their 
families and left to die for nothing more than a single 
expression of dissent.
    I am compelled to ask again today, as I have before, why is 
there such an obvious double standard when it comes to Cuba? 
Why are the gulags of Cuba so different from the gulags of the 
old Soviet Union? Why are we willing to tighten sanctions 
against Iran, but loosen them when it comes to an equally 
repressive regime inside of Cuba?
    When it comes to Cuba, why are we so willing to throw up 
our hands and say it is time to forget? It is not time to 
forget. We can never forget those who have suffered and died at 
the hands of dictators. Not in Iran. Not in Cuba. Not anywhere.
    It is clear the repression in Cuba continues unabated, 
notwithstanding all of the calls to ease travel restrictions 
and sanctions; notwithstanding millions of visitors from across 
the globe; notwithstanding greater resources that the regime 
now has in terms of currency; notwithstanding calls to step 
back and, in effect, let bygones be bygones. That has not 
stopped the repression.
    The repression, the imprisonment, the beatings, the torture 
still continues. In good conscience, I, for one, cannot and 
will not step back from that. As long as we have a voice in the 
United States Senate, that voice will be for the freedom of the 
Cuban people.
    With that, let me recognize the distinguished ranking 
member of the committee, Senator Rubio.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman.
    And first of all, Secretary Jacobson, thanks for being 
here. Thanks for your service to our country.
    And thank you, Mr. Chairman, for holding these hearings. I, 
in the interest of time, will limit my remarks. And second, I 
doubt I could do it more eloquently than you have already done, 
and I echo every word you said. I just wanted to add a few 
things.
    First, I think this hearing is also important because it 
allows us to illustrate what is happening just 90 miles from 
our shores. I think for many Americans and for many, as we look 
around the world, we somehow have come to think that 
totalitarianism, dictatorship, the abuses, human rights abuses 
are something that happen somewhere else.
    They happen in our very own hemisphere, literally within 90 
miles from the shores of this country. They happen in Cuba, and 
they have been happening now for a very long time. What exists 
in Cuba is not some cold war relic of interest. It is, in fact, 
three things.
    First of all, it is an extremely repressive regime, as 
repressive perhaps as any other regime in the entire world. A 
manipulative regime, one that deliberately divides families 
against each other, that deliberately manipulates people who 
travel to the island of Cuba, that deliberately manipulates 
United States policy toward Cuba to their advantage.
    It is a one-way street. Even our best intentions are 
manipulated. Families are deliberately divided by the Cuban 
Government, where they know that they can allow half the family 
to come here so they can send remittances back to the island to 
their relatives in a cynical effort to divide not just the 
Cuban people, but the Cuban families.
    And the one thing we can't forget that despite their 
repressiveness and their manipulativeness and the evil that 
exists in that regime, it also happens to be an economically 
incompetent one. They are very good at repressing people. They 
are very good at keeping people jailed on the island. What they 
are not good at is running a country.
    They are literally incompetent leaders. They have no idea 
how to run an economy, how to create the conditions for job 
creation. And that, and that alone, is the reason why the Cuban 
people suffer economically, because their leaders literally do 
not know what they are doing.
    Now, the other thing I would say is that our goal here, as 
the United States and as people who care deeply about human 
rights all over the world, is that the people of Cuba have 
freedom, the freedom to choose any economic model they want, 
but the freedom to choose their leader so they can have any 
economic model they want.
    What direction Cuba goes economically, that belongs to the 
Cuban people. That is not for us to say. What is for us to 
stand for is democracy and the right of the Cuban people to 
determine their own future. That is what we stand for.
    In the United States, with some very rare exception, there 
is no debate on that topic. What there is debate about is the 
tactics about which we accomplish this.
    Now I think I have been on record in the past as 
questioning the tactics of this administration, not because I 
question their motives or their intentions, because I, quite 
frankly, think the tactics that this administration has pursued 
are naive. The notion that somehow by flooding Cuba with 
tourists and people-to-people contacts we are going to somehow 
change the Cuban Government is naive.
    The Cuban Government manipulates our policy toward Cuba to 
their advantage. I repeat it is a one-way street. So I don't 
think the United States or this administration is doing it out 
of bad intentions, but I don't think they fully grasp what we 
are dealing with here.
    And what I have found is that even among some of my 
colleagues in the Senate who fly to Cuba or travel to Cuba with 
the notion that they are going to set things straight, they are 
going to be the ones that get things going. They are going to 
talk some sense into these folks. And many of them return 
scratching their heads and shaking their heads because they 
have come face-to-face with how truly manipulative and good at 
manipulating people and circumstances this repressive regime 
has become.
    I hope one of the things we will be able to talk about 
today and over the next few months are some new tactics. One of 
the things I would love to see, and I have talked to the 
chairman about it, is somehow figuring out a way to give the 
people of Cuba access to the Internet, free and clear of 
interference from the government.
    Because I believe with all my heart that if the people of 
Cuba had access to the Internet and could communicate with one 
another--literally, they could follow each other on Twitter and 
Facebook and get news from the outside world, free to choose 
any news they want to access--I do not believe the Castro 
regime could survive that for very long. And so, I hope we will 
explore options to doing that.
    I close my statement with a message to the people who work 
for the government in Cuba, and particularly those involved in 
the repression because I know they like to watch these 
hearings. They may even have some people here in the audience 
today. So let me give you a message to take back.
    If you are involved in beating people, if you are involved 
in jailing people in Cuba, if the government is using you, 
whether it is here in the United States as part of the 
Interests Section or in Cuba, in abusing human rights, your 
name is being recorded, and you are part of a government that 
is not sustainable. The government you work for cannot survive.
    Fidel Castro is halfway gone, and his brother will be gone, 
too. And when they are gone, the system of government in place 
in Cuba cannot survive. But your name is going to be recorded, 
and you will be brought before justice.
    If you are a police officer, if you are a military official 
in Cuba involved in human rights abuses, your name is being 
written down, and you will have to answer for those crimes 
before a Cuban court or an international one. You need to think 
about that before you cooperate with some of the things that 
are happening to some of the folks that we are hearing about 
today.
    Because you are part of a system that cannot survive and 
that long after those leaders are gone, you are going to be 
left behind picking up the pieces of what you are doing right 
now. And so, I hope that message gets there. I will be more 
than happy to deliver it in Spanish as well after the hearing.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Rubio, very much.
    Let me recognize Assistant Secretary Roberta Jacobson, who 
served as the Principal Deputy Assistant Secretary for the 
Western Hemisphere Affairs before this present assignment, 
Senior Coordinator for Citizen Security Initiative of the 
Western Hemisphere. She has also served as the Deputy Assistant 
Secretary for Canada, Mexico on NAFTA Issues in the Bureau, and 
was Deputy Chief of Mission at the U.S. Embassy in Lima, Peru, 
from 2000 to 2002.
    She has a long and distinguished record in the Western 
Hemisphere, and we are pleased to have her here with us today.
    So I would ask you to summarize your testimony in about 5 
minutes. Your full statement will be entered into the record, 
and we are pleased to have you and acknowledge you now.

  STATEMENT OF HON. ROBERTA JACOBSON, ASSISTANT SECRETARY OF 
STATE FOR WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Jacobson. Thank you, Mr. Chairman.
    Chairman Menendez, Ranking Member Rubio, I am delighted for 
the opportunity to be here today, and I appreciate this 
subcommittee's engagement in the Western Hemisphere and your 
commitment to shared democratic values, human rights, and 
expanding economic and social opportunity in the Americas.
    In most countries in the Western Hemisphere, we see 
governments working to provide greater political and economic 
opportunity for citizens, but there remain exceptions. That is 
why supporting human rights, democratic governance, and greater 
prosperity remains a fundamental U.S. objective throughout the 
hemisphere, but especially in Cuba.
    In Cuba, the Obama administration's priority is to empower 
Cubans to freely determine their own future. The most effective 
tool we have for doing that is building connections between the 
Cuban and American people in order to give Cubans the support 
and tools they need to move forward independent of their 
government.
    U.S. citizens engaging in well-defined, purposeful travel 
are the best ambassadors for our democratic ideals. The 
hundreds of thousands of Cuban Americans who have sent 
remittances and traveled to the island since we eased the way 
for them early in the administration are a central part of a 
strategy to ensure that Cubans have these opportunities.
    Our policy also recognizes the importance of engaging with 
pro-democracy and human rights activists, some of whom you will 
speak to today, who have been working for years to expand the 
political and civil rights of all Cubans. Our programs provide 
humanitarian assistance to political prisoners and their 
families, support the documentation of human rights abuses, and 
promote the free flow of information to, from, and within the 
island.
    Last year, Secretary Clinton recognized Cuban blogger, 
Yoani Sanchez, with the 2011 International Women of Courage 
Award, and the Damas de Blanco won the State Department's 2011 
Human Rights Defenders Award.
    In 2010 and 2011, the Cuban Government, with support from 
the Spanish Government and Catholic Church, released dozens of 
political prisoners, most on condition of exile in Spain. We 
welcomed the release of these political prisoners, including 
the last of the 75 peaceful activists who were unjustly 
arrested during the Black Spring of 2003.
    Unfortunately, the release did not effect a fundamental 
change in the Cuban Government's poor record on human rights. 
The government has continued to punish political dissent, 
increasingly using repeated short-term arbitrary detentions to 
prevent citizens from assembling peacefully and freely 
expressing their opinions and it continues to limit fundamental 
freedoms.
    It has continued to threaten and harass peaceful human 
rights defenders, including the Damas de Blanco, and that is 
why we will continue to support an independent civil society 
and the right of the Cuban people to freely determine their own 
future through both governmental policy and the facilitation of 
nongovernmental engagement.
    Despite the Cuban Government's intolerance of political 
dissent, faith-based organizations have gained more latitude to 
conduct religious outreach and provide vital social services to 
marginalized Cubans. And, the administration has taken steps to 
support religious groups in Cuba by authorizing U.S. religious 
organizations to sponsor religious travel and allowing 
unlimited remittances to support religious activities in Cuba.
    Against this backdrop, we also highlight the case of Alan 
Gross, who has been unjustly imprisoned in Cuba since December 
2009, and I, too, would like to greet Judy Gross at this 
hearing. We will continue to seek the immediate release of this 
dedicated development worker and loving father, husband, and 
son.
    Enhancing access to communication technology will 
facilitate Cuba's process of political change. Our Interests 
Section in Havana provides free Internet access to human rights 
activists and other Cubans, teaches basic information 
technology skills, and provides training to independent 
journalists.
    To Cuba and other governments across the hemisphere, our 
message must be clear. Nonviolent dissent is not criminal 
behavior. Opposition to the government is not criminal 
behavior. Exercise of free speech is not criminal behavior. To 
the contrary, free speech is a right that must be defended.
    I know that this subcommittee is committed to ensuring full 
respect for freedom of expression in the Americas, and in some 
countries in the region, we have seen new tactics used by 
governments and other actors determined to silence those who 
challenge them, including threats and violence against 
journalists and government regulations aimed at silencing 
critics. Wherever it occurs in our hemisphere, we need to 
confront these new measures to limit freedom of expression.
    In closing, let me emphasize that we will be the first to 
cheer when a democratically chosen government in Cuba resumes 
its full participation in the inter-American system. This 
hemisphere has been a trailblazer in enshrining democratic 
principles in its national and regional institutions to the 
shared benefit of the peoples of the Americas. These principles 
remain critically relevant in the hemisphere, to its challenges 
and its future, as we underscored most recently in the OAS 
General Assembly in Bolivia.
    I look forward to continuing to work with you to promote 
greater freedom and prosperity in Cuba and throughout the 
hemisphere.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Jacobson follows:]

     Prepared Statement of Assistant Secretary Roberta S. Jacobson

    Chairman Menendez, Ranking Member Rubio, members of the committee, 
thank you for the opportunity to be here today. I appreciate this 
subcommittee's engagement in the Western Hemisphere and applaud its 
commitment to shared democratic values, human rights, and expanding 
social and economic opportunity in the Americas.
    In most countries in the Western Hemisphere, we see governments 
working to provide greater political and economic opportunities for 
citizens but there remain exceptions. That is why supporting human 
rights, democratic governance, and greater prosperity remains a 
fundamental U.S. objective throughout the hemisphere, especially in 
Cuba.
    In Cuba, the Obama administration's priority is to empower Cubans 
to freely determine their own future. The most effective tool we have 
for doing that is building connections between the Cuban and American 
people, in order to give Cubans the support and tools they need to move 
forward independent of their government. U.S. citizens, engaging in 
well-defined, purposeful travel, are the best ambassadors for our 
democratic ideals. The hundreds of thousands of Cuban Americans who 
have sent remittances and traveled to the island since we eased the way 
for them early in this administration are a central part of a strategy 
to ensure that Cubans have the opportunities which they deserve. The 
administration's travel, remittance, and people-to-people policies are 
helping Cubans by providing alternative sources of information, taking 
advantage of emerging opportunities for self-employment and private 
property, and strengthening independent civil society.
    Our policy also recognizes the importance of engaging with the pro-
democracy and human rights activists who have been working for years to 
expand the political and civil rights of all Cubans. As Secretary 
Clinton has stated, societies move forward when groups of citizens work 
together peacefully to transform common interests into common actions 
that serve the common good. Our programs in Cuba provide humanitarian 
assistance to political prisoners and their families, support the 
documentation of human rights abuses, and promote the free flow of 
information to, from, and within the island. We consistently support 
and highlight the work of people promoting positive change in Cuba. 
Last year, Secretary Clinton recognized Cuban blogger, Yoani Sanchez, 
with the 2011 International Woman of Courage, and the Damas de Blanco 
(Ladies in White) won the State Department's 2011 Human Rights 
Defenders Award.
    In 2010 and 2011, the Cuban Government, with support from the 
Spanish Government and Catholic Church, released dozens of political 
prisoners, most on the condition of exile in Spain. We welcomed the 
release of these political prisoners--including the last of the 75 
peaceful activists who were unjustly arrested during the ``Black 
Spring'' of 2003 for exercising their universal rights and fundamental 
freedoms. We were especially pleased that twelve of these brave 
individuals, including Jose Daniel Ferrer and Presidential Medal of 
Freedom winner Oscar Biscet, successfully campaigned to remain in Cuba. 
Unfortunately, their release did not effect a fundamental change in the 
Cuban Government's poor record on human rights. The Cuban Government 
has continued to punish political dissent, increasingly using repeated, 
short-term, arbitrary detentions to prevent citizens from assembling 
peacefully and freely expressing their opinions. It continues to limit 
fundamental freedoms, including freedoms of speech, freedom of the 
press, access to information, and peaceful assembly and association--
issues on which this subcommittee has strongly spoken out, on, and for, 
which it has long advocated for in the region. And it has continued to 
threaten and harass peaceful human rights defenders, including the 
courageous ``Ladies in White'' (``Damas de Blanco''). That is why we 
will continue to support an independent Cuban civil society and the 
right of the Cuban people to freely determine their own future, through 
both governmental policy and the facilitation of nongovernmental 
engagement.
    Despite the Cuban Government's intolerance of political dissent, 
faith-based organizations have gained more latitude to conduct 
religious outreach and provide vital social services to marginalized 
Cubans. We respect the efforts of various denominations to win greater 
space within Cuba and value their charitable work. The administration 
has taken steps to support religious groups in Cuba by authorizing U.S. 
religious organizations to sponsor religious travel, and allowing 
unlimited remittances to support religious activities in Cuba.
    Against this backdrop, we also highlight the case of Alan Gross, 
who has been unjustly imprisoned in Cuba since December 2009. We will 
continue to seek the immediate release of this dedicated development 
worker and loving husband, father, and son.
    Enhancing access to communication technology will facilitate Cuba's 
process of political change. Our U.S. Interests Section in Havana 
provides free Internet access to human rights activists and other 
Cubans, teaches basic information technology skills, and provides 
training to independent journalists. Although the Cuban Government 
severely restricts the ability of Cubans to access the Internet, cell 
phones were legalized in Cuba in 2008, and since then cell phone usage 
has more than doubled, enhancing the connectivity of Cuban civil 
society. Activists can now report human rights abuses by SMS and on 
Twitter.
    To Cuba and other governments across the hemisphere, our message 
must be clear: nonviolent dissent is not criminal behavior. Opposition 
to the government is not criminal behavior. Exercise of free speech is 
not criminal behavior. To the contrary, free speech is a right that 
must be defended.
    Let me expand on this last point briefly. Mr. Chairman, I know that 
you are committed to ensuring full respect for freedom of expression in 
the Americas. I would like to applaud the subcommittee's efforts to 
underline the importance of freedom of expression in our hemisphere. In 
some countries in the region, we have seen new tactics used by 
governments and other actors determined to silence those who challenge 
them. These include threats and violence against journalists, 
government regulations aimed at silencing critics, abusive requirements 
to carry obligatory government broadcasts, and disproportionate and 
unprecedented lawsuits against media owners. Wherever it occurs in our 
hemisphere, we need to confront these new measures to limit freedom of 
expression.
    In closing, let me emphasize that our policy toward Cuba is focused 
on supporting Cubans' desire to freely and peacefully determine their 
future. We will be the first to cheer when a democratically chosen 
government in Cuba resumes its full participation in the Inter-American 
system. This hemisphere has been a trailblazer in enshrining democratic 
principles in its national and regional institutions, to the enormous 
shared benefit of the peoples of the Americas. Those principles remain 
critically relevant to the hemisphere, its challenges, and its future 
as we underscored most recently at the OAS General Assembly in Bolivia.
    Again, I appreciate your commitment to human rights, democracy, 
economic growth, and security in the Western Hemisphere. I look forward 
to continuing to work with you to promote greater freedom and 
prosperity in Cuba.
    Thank you and I look forward to answering any questions the 
committee may have.

    Senator Menendez. Thank you, Madam Secretary.
    Let me start off by saying that I find it very difficult to 
understand some of the administration's views as it relates to 
strengthening civil society inside of Cuba, strengthening the 
information flow that Senator Rubio talked about, and the 
policies that we adopt. I am outraged with the Department's 
decision to authorize visas for a stream of Cuban regime 
officials to visit the United States, starting with Josefina 
Vidal, Cuba's Director for North American Affairs, in April, 
whose husband was ultimately kicked out of the U.N. mission in 
New York.
    Most recently, I am outraged by the approval of visas for 
the daughter of Cuban dictator Raul Castro, Mariela Castro 
Espin, and her friends to attend the Latin American Studies 
Association conference. I do not understand how, as the Castro 
regime holds an American hostage for over 2\1/2\ years and when 
we have, as described, the highest monthly number of documented 
arrests in five decades, we permit Mariela Castro to be 
parading around the United States on a publicity tour, largely 
declaring herself a disidente. I don't know what she is a 
disidente of.
    I want to know under what authority were Ms. Castro and 
other Communist Party officials issued visas to enter the 
United States? Did the Department exercise its waiver authority 
under Executive Order 5377 to issue these visas? And how do you 
justify giving those visas when you have this incredible 
repression inside of Cuba and an American citizen languishing 
for 2\1/2\ years in Castro's jails for nothing more than 
helping the Jewish community in Havana to try to communicate 
with each other?
    Ms. Jacobson. Thank you, Mr. Chairman.
    I want to start off by saying that certainly no one has 
been more outraged at Alan Gross' detention and continued 
detention, and we will continue to do everything that we can to 
see that he is home with his family, as he should be now with 
his mother and his family.
    Senator Menendez. But everything that we can do would 
include sending the regime a message that you can't keep an 
American in prison and then have all your people parade over 
here. To me, that is an oxymoron.
    Ms. Jacobson. Senator, under the regulations for visas, and 
which we look at every time that we have visa applications from 
any citizen, but certainly Cuban citizens, we look at the full 
range of national security, foreign policy, immigration laws 
and regulations, including reviewing, obviously, Proclamation 
5377. In the cases of Mariela Castro and Eusebio Leal, those 
two cases did not fall under the exception requirement of 
Proclamation 5377, as that was effectively implemented since 
1999 under Secretary Albright.
    And so, those Cubans were allowed to come to the United 
States to speak openly because in our country, they are able to 
do so, despite my not agreeing at all with the statements of 
Mariela Castro, obviously. And to speak at the Latin American 
Studies Association and at other events.
    In the case of Josefina Vidal, she had originally applied 
for that visa to do work with the Interests Section here in 
Washington. We obviously apply for visas to go to Havana to 
work with our own Interests Section. And we felt that it was 
appropriate to allow her to come into this country and work 
with the Interests Section here under that principle of 
reciprocity, recognizing that we want to be able to meet with 
and talk to the widest range of people in Cuba that we possibly 
can and recognizing that the Cuban Government does not always 
allow us that.
    Senator Menendez. Are you suggesting that Mariela Castro is 
not a Communist Party official?
    Ms. Jacobson. I am not suggesting that she may not be a 
member of the Communist Party. But as the proclamation was 
interpreted and effectively narrowed in 1999, she was not a 
senior party official.
    Senator Menendez. The United States denies visas to all 
types of people all across the world. It has broad jurisdiction 
in doing so. You exercised your discretion in giving a visa to 
these individuals who are part of a repressive system inside of 
Cuba, which has an American languishing in jail. You had the 
authority to say no.
    You talk about reciprocity. Every time I have talked to the 
head of our Interests Section, both those now and in the past, 
that reciprocity is not ultimately observed inside of Cuba. 
They are restricted in their travel inside of Cuba. They are 
restricted in their actions inside of Cuba.
    So what we are doing is giving a one-way street here and 
sending a totally wrong message. Those who fight for freedom 
inside of Cuba each and every day, they languish there. And yet 
those who oppress them, they get to come to the United States 
and carry out their propaganda.
    I understand the beauty of our freedom, but there is also a 
public policy decision to say we do not condone this type of 
behavior. I guess we would allow Syria's dictatorship to come 
here and express their views. Last I saw, we expelled their 
diplomats from the United States.
    The bottom line is we make choices all the time in terms of 
promoting the national interests and security of the United 
States, and certainly, the national interests of the United 
States have to be to see democracy fostered inside of Cuba and 
not to allow those who repress democracy to come to the United 
States to promote their propaganda.
    Let me turn to another set of circumstances that I don't 
understand policywise, which is the whole ``people to people'' 
travel to Cuba. Since the administration eased restrictions on 
travels and remittances in April 2009, the Castro regime has 
doubled its hard currency reserves in foreign banks. The Bank 
for International Settlements reported banks in 43 countries 
held $5.76 billion in Cuban deposits as of March 2011, which is 
the date that we have figures for, compared with $4.2 billion 
at the close of 2009 and $2.8 billion at the close of 2008.
    So it is very clear, because nothing else has changed 
inside of the island in terms of revenue source, that we are 
essentially bankrolling the regime and stashing its hard 
currency abroad. I look at that, and I say to myself, look at 
the travel.
    In the time that we have permitted this travel we have seen 
salsa tours, visits to Hemingway's marina, cigar factory tours, 
performances of the Cuban National Ballet at the Gran Teatro, 
and my all-time favorite, part of Inside Cuba's ``Undiscovered 
Cuba'' trip, the opportunity in Santa Clara to visit the Che 
Memorial, where the Cuban revolutionary was laid to rest, where 
you meet with an historian to ultimately understand Che's 
legacy.
    This is a tremendous way to help civil society inside Cuba 
promote democracy and human rights by dramatically increasing 
the Castro regime's ability to have resources to oppress its 
people while we see the highest amount of repression, as has 
been said by those within Cuba, in five decades.
    Tell me how that policy is working.
    Ms. Jacobson. Senator, there are other reasons--as 
difficult as it is to ascertain actual statistics on Cuban 
revenues, there are other things we believe have----
    Senator Menendez. You don't dispute those reserves, right? 
They are internationally reported.
    Ms. Jacobson. We have certainly seen those reports, 
obviously, of the increase in reserves. But there have also 
been increases until fairly recently in prices for nickel and 
recovery from the 2008 hurricanes in Cuba. Because of their 
policy of import substitution industrialization, an increasing 
number of countries and firms have required increased cash and 
reserves because of Cuba's bad credit risk, quite frankly.
    So we believe there are many different reasons that their 
reserves may have increased. Certainly, we do not believe there 
is a sole reason for the increase.
    Senator Menendez. Do you dispute that the largest increase 
in reserves to the Castro regime is a combination of 
remittances and travel money that is going into Cuba?
    Ms. Jacobson. I simply don't know that that is the reason 
directly one to one for the increase in reserves.
    Senator Menendez. So nickel has increased so much that it 
has now created an increase of $2 billion in reserves?
    Ms. Jacobson. Well, I know that there are multiple reasons 
that they may have increased their reserves, and I do know that 
there are obviously increased funds from remittances and 
travel. But we don't know that that is the whole reason.
    Senator Menendez. Talk to me about how the Che Memorial 
really helps create civil society inside of Cuba.
    Ms. Jacobson. Senator, there are abuses that are committed 
in the regulations that we promulgated for purpose of travel.
    Senator Menendez. But you have created regulations that 
permit abuses to take place rather widely.
    Ms. Jacobson. There are also some very positive things 
happening in the interactions between Americans, religious 
organizations, humanitarian groups, human rights outreach that 
are occurring under this program.
    Senator Menendez. And those successes ultimately can be 
justified in the context of record numbers of imprisonments?
    Ms. Jacobson. We think that the benefits over time of the 
increased contact to the Cuban people and their ability to 
change the situation in Cuba will outweigh the negatives. But 
certainly, as I have stated in my opening statement, we do not 
in any way condone or tolerate the increased detentions and 
harassment of Cubans inside the island.
    Senator Menendez. Well, it is hard to understand how you 
have this dramatic increase. The one fundamental thing that has 
changed is that there is an unlimited flow of remittances and, 
visits like these ``tours'' to the Che Memorial--all of these 
things where you don't interact with average Cubans, you don't 
engage average Cubans. You are self-reporting. So that is why 
the abuses largely are allowed because you create a general 
license in which anyone can go, and therefore, you have no real 
reporting of travel itineraries and engagements.
    So smoking a Cuban cigar made by those who are not free, 
having a Cuba libre on the beaches of Varadero, which is an 
oxymoron, is not the way in which we liberate the Cuban people. 
Giving the regime more money for its repressive apparatus, 
which obviously in the face of all of these benefits have only 
dramatically increased the number of arrests, not decreased it, 
has not created a more open opportunity for civil peaceful 
society to promote themselves and is not my idea of success.
    And I don't know how many people have to be arrested, how 
many Americans have to languish in jail before we send a 
totally different message to the regime.
    Senator Rubio.
    Senator Rubio. Yes, before we leave the visa topic, because 
you touched upon a point about how we deny visas all the time, 
I want to use an example, just to see why this doesn't make any 
sense to me.
    Maybe a decade and a half ago, the United States, in 
cooperation with the Government of Honduras, conducted an 
operation to capture a gentleman responsible for the murder of 
an American agent. One of the people in that was a Honduran who 
now lives in the United States. And a decade and a half later, 
under a new government, new court system, he has been indicted 
for that operation that the United States--in Honduras, he was 
indicted in an operation conducted by the United States in 
conjunction with the Honduran Government.
    Sadly, his grandchildren--his daughter and her husband were 
murdered in Honduras about 4 months ago, and he has three 
grandchildren who have applied for a tourist visa to enter the 
United States and visit their grandfather and were, quite 
frankly, treated very rudely yesterday at the consulate, and 
their three visas denied. But Raul Castro's daughter is 
parading through the streets of the United States of America.
    And obviously, I hope that that denial will be 
reconsidered. It is not the topic of this hearing, and I know 
you didn't make that decision. But my point is that I don't get 
it.
    I don't understand how three little children, three 
orphaned children who want to visit their grandfather in the 
United States are somehow deemed--or denied a tourist visa. But 
the same government that denied them the tourist visa gave one 
to Mariela Castro so she could come to the United States and 
justify the fact that they are holding an American hostage. To 
come to the United States and call dissidents ``despicable 
parasites,'' people who all they want basically is for their 
country to have freedom and self-determination. So I hope we 
can have a further conversation about that process.
    I do want to touch on two other things quickly. Talked 
about the Internet, and I saw in your statement you talked 
about free Internet access at the Interests Section. That is a 
good thing. And I have talked to Senator Menendez about this a 
little bit. I am very interested in the possibility, and I 
would like to work with you and the State Department in the 
possibility of providing Internet access through satellite into 
Cuba.
    There are existing commercial satellites now that beam 
signals throughout the world. If you have a receiver, right now 
in Cuba, you could receive satellite signals from any number of 
satellites that are up there now. Obviously, you have to be 
able to pay for the subscription service.
    If somehow we could figure out a way for the Government to 
do that, whether it is through our broadcasting efforts or 
otherwise, we could potentially provide a vehicle. But 
obviously, the people of Cuba would have to have access to the 
computer equipment that would allow them to access the Internet 
through the satellite.
    But it is technologically feasible for the United States to 
be involved in sponsoring Internet access for 13 million people 
on the island of Cuba, which I think if the people on Cuba had 
an opportunity to have access--for example, if they could read 
Yoani Sanchez's Tweets, which is very difficult. We can see it 
in the outside world, but sometimes she can't even see her own 
Tweets.
    Facebook. If somehow the dissidents in Cuba were able to 
quickly post on YouTube videos about the abuses that are 
happening there. And more importantly, if they were able to 
talk to one another and have access to the outside world in 
terms of information, I think that is one of the single 
greatest contributions that this country could make to the 
advancement of freedom and democracy on the island.
    And I hope we can work with your office to put something 
like this together, which I really think would be a very cost-
effective way to further the cause of freedom and liberty.
    And the last thing I hope that State will consider is a 
mechanism by which we can begin to create, if it doesn't exist 
already--and maybe it does--a registry where dissidents and 
resistance and others on the island could register the names of 
human rights abusers so that the world can know their names, so 
that they can be held to justice if and when the day comes.
    These are people that are part of the flash mobs on the 
street. These are people that wear uniforms but, in fact, are 
thugs. And they beat people and they torture people and they 
jail people, and they are fully cooperating with this 
government and its endeavors. I think their names need to be 
recorded. I think we need to know who they are.
    Some of these folks, by the way, wind up here in the United 
States. A few years later, they change their minds. They 
decide, oh, we don't like what is going on in Cuba, and then 
they are walking in Miami around the street. So I would like to 
know their names as well.
    But I know that dissidents keep track of who these 
individuals are, and there is going to be a free Cuba soon. 
There is going to be. And these folks need to be held 
accountable. And I hope we will consider sponsoring some sort 
of registry where we can publicize the names of these folks, of 
who they are and what they are conducting so that it is clear 
there for the record in the future when the time comes for them 
to be held up to justice.
    Ms. Jacobson. Thank you, Senator.
    And I look forward to working with you on these issues, and 
in particular, as you know, we think it is absolutely critical 
that greater information, greater access to information be 
given to the Cuban people. That is why so much of our efforts 
are focused on that, whether in the Interests Section or in our 
assistance programs.
    There are some reports that say there are well over double 
the number of cell phones in Cuba now than there were just a 
short number of years ago when they were first permitted. And I 
think this is a trend that we certainly want to engage with you 
on encouraging.
    Senator Menendez. Two last sets of questions. One is on 
that note. One of the reasons that the Castro regime arrested 
Alan Gross was to try to chill the very essence of what our 
democracy programs are inside of Cuba. And after Mr. Gross' 
arrest, a series of actions were taken, and grantees were 
basically told to refrain from activities that ultimately are 
just about creating an ability for Cubans to communicate with 
each other about what is happening inside of their country.
    I hear you say that we support that, and I certainly am 
very interested in Senator Rubio's idea here. I would love to 
see us possibly fund such an initiative. Have you not chilled 
all of those grantees in terms of their engagement inside of 
Cuba, which is exactly what the regime wants?
    Ms. Jacobson. Senator, I don't think that we have. Clearly, 
the regime is trying to send us a message about the ability to 
get information around Cuba and connect Cubans to each other, 
and I think we have to continue to try and ensure that in the 
environment that our democracy programs operate in Cuba, we do 
them as safely for the participants and as effectively as we 
possibly can. That is the intention of our conversations and 
our review of all of our grant programs.
    Senator Menendez. Well, having spoken to many of the 
grantees, both past and present, it seems to me that we are 
sending a far different message, and, in essence, we have never 
permitted our worldwide democracy or surrogate broadcasting 
programs to be impinged upon by either jamming or policies of a 
regime to stop, in essence, the very essence of what we are 
trying to accomplish in our democracy programs.
    And so, I would really look forward to having a sit-down 
about all of the programs and how they are not necessarily 
accomplishing what we want.
    Finally, I heard you refered to Mr. Gross before, and I 
want to know what is the present status? I mean, obviously, he 
is in jail. The question is, Has the regime made any offers, 
any suggestions about his freedom to the State Department?
    Ms. Jacobson. Certainly they have not responded to any of 
our entreaties, demands, or requests that he be allowed to come 
home with his family with any acceptable response, which would 
be, yes, now. There has been no response from the Cuban 
Government in our conversations either with them or their 
public statements that they are willing to do that.
    Certainly, most recently, we have focused on Mr. Gross' 
mother who is gravely ill and is 90 years old, Evelyn Gross, 
and the fact that he should be released on humanitarian grounds 
to be able to see her. And we have pressed that very hard, and 
we have not gotten a satisfactory answer at all on that.
    Senator Menendez. Did you not permit one of the individuals 
who had been released after his custody to go back to Cuba and 
promote a humanitarian ability in that respect?
    Ms. Jacobson. Senator, in that particular case, the Justice
 Department objected to his return to Cuba on that visit. But 
the court allowed him to go back to Cuba. Frankly, the court 
having done so, we thought that was a perfect opportunity for 
the Cuban Government to take a humanitarian gesture and let Mr. 
Gross see his mother, and they did not.
    Senator Menendez. And they did not, which is par for the 
course. It is a one-way street.
    Thank you very much for your testimony. There may be 
questions that come to you through the committee. We look 
forward to your answering them.
    Let me call up, both here and in Cuba, our next set of 
witnesses. First, Mr. Normando Hernandez, who is here 
physically with us. He is an independent journalist who has 
dedicated his career to providing alternative sources of news 
and information in Cuba. He cofounded the Cuban Foundation for 
Human Rights, and established the Camaguey Association of 
Journalists, the first independent organization in the Camaguey 
province since 1959.
    He was declared a prisoner of conscience by Amnesty 
International following Cuba's Black Spring. He was exiled to 
Spain in 2010 and has since resettled in the United States. Mr. 
Hernandez is currently a fellow at the National Endowment for 
Democracy, where he is examining the Cuban communications 
monopoly and considering strategies by which independent 
journalists may combat totalitarianism, and we welcome him to 
our committee.
    Inside of Cuba, by telephone through the U.S. Interests 
Section, we welcome Mr. Jose Daniel Ferrer Garcia. He is a 
leader of the Patriotic Union of Cuba and organizer of the 
Varela Project, a campaign to put political and economic 
constitutional reforms to a vote through an initiative process.
    During the Black Spring, he was arrested, tried, convicted, 
and sentenced to 25 years in prison for his role in the 
campaign. While in prison, Mr. Ferrer worked as an independent 
journalist to report the abuses he witnessed behind prison bars 
and the courage of other prisoners of conscience. In March 
2011, after serving 8 years in prison, he was granted a 
conditional release, and we welcome him.
    By video conference, we welcome Ms. Sara Marta Fonseca, a 
distinguished leader of the Partido Pro Derechos Humanos de 
Cuba. As captured in the now-famous photographs, Ms. Fonseca 
was publicly roughed up by government authorities during the 
Black Spring crackdown. Years later, after putting signs 
outside her house that read ``long live human rights'' and ``we 
demand rights for all Cubans,'' Ms. Fonseca; her husband, Julio 
Ignacio Leon Perez; and her oldest son were violently beaten by 
a large mob that was acting under the direction of state 
security organs.
    As a freedom fighter, Ms. Fonseca has been harassed, 
arrested, detained, and beaten by the Castro regime and its 
supporters, and she is a hero for all who support human rights, 
and we welcome her.
    And Jorge Luis Garcia Perez ``Antunez'' is a political 
activist who has fought over 20 years for human rights and 
democracy in Cuba. In 1990, ``Antunez'' was beaten and arrested 
by agents of state security police for shouting in public that 
Communism was ``an error'' and ``utopia'' and demanding that 
Cuba adopt reforms like those taking place in Eastern Europe.
    After being charged for ``oral enemy propaganda'' and 
sentenced to 6 years in prison, ``Antunez'' started a hunger 
strike that lasted 21 days. After serving 17 years in prison, 
he was finally released in April 2007, and we welcome him as 
well.
    So we are going to go, obviously, through a process under 
which our witnesses and our guests are going to be speaking in 
Spanish and we will have an interpreter translate into English. 
We are going to start off with Normando Hernandez.
    I am going to have to ask you, as you go through your 
presentation, to pause at times to give the interpreter an 
opportunity to interpret so that the rest of the committee and 
the transcript that is being developed will have its English 
version. And while Senator Rubio and I may fully understand 
what you are saying, we need for the rest of the committee, the 
audience, and the members who have staff here to understand 
what you are saying as well.
    So it will take a little bit of time, but we look forward 
to your testimony, and we thank you for your willingness to 
come forward.
    So, with that, Mr. Hernandez, we are going to start with 
you.
If you can summarize your testimony in around 5 minutes or so, 
we will be a little flexible here. We don't always get these 
opportunities.
    And then all of your testimony will be included in the 
record. With that, Bienvenido y puedes empezar.

  STATEMENT OF NORMANDO HERNANDEZ GONZALEZ, FELLOW, NATIONAL 
   ENDOWMENT FOR DEMOCRACY, FORMER CUBAN POLITICAL PRISONER, 
                         WASHINGTON, DC

    Mr. Hernandez. Honorable Chairman Robert Menendez, 
Honorable Ranking Member Marco Rubio, and members of the 
subcommittee, good morning.
    Thank you very much for inviting me to testify. My name is 
Normando Hernandez, and I am a journalist and an ex-political 
prisoner from Cuba, member of the group of 75.
    When I read the topic of this hearing, I did nothing but 
rejoice. Events like this show the world that Cubans are not 
alone on their long and difficult road to freedom.
    To be against the repression in Cuba is to be against the 
totalitarian regimes of the Castro brothers. It is to be in 
favor of the true emerging Cuba civil society.
    I am still learning English. So please allow me to continue 
in Spanish.
    Mr. Hernandez. Les digo, la emergente y verdadera sociedad 
civil cubana, para distinguir de aquellas organizaciones del 
gobierno cubano que se dicen llamar sociedad civil, cuando en 
realidad son creadas y manipuladas por el gobierno. La sociedad 
civil independiente en Cuba.
    Interpreter. I would like to highlight the emergent and 
growing civil society in Cuba as different from the so-called 
civil society of the past, which was created and manipulated by 
the government.
    Mr. Hernandez. La Sociedad Civil Independiente en Cuba, 
esta pon . . . Compuesta por grupos autoconstituidos de 
ciudadanos, sin autorizacion del estado, para defender sus 
intereses frente a este.
    Interpreter. Independent civil society in Cuba is composed 
of self-created citizen groups, established without 
authorization from the government to defend their interests 
before the state.
    Mr. Hernandez. Esto incluye lo que se conoce hoy en dia 
como disidencia, la oposicion pacifica, el movimiento de 
Derechos Humanos, partidos politicos, blogueros y asociaciones 
de profesionales e intelectuales.
    Interpreter. This includes what is known today as the 
dissidents, peaceful opposition, the human rights movement, 
political parties, bloggers, and professional and intellectual 
associations.
    Mr. Hernandez. La semilla de esta sociedad, se sembro el 28 
de enero de 1976, con el nombre de Comite Cubano Pro Derechos 
Humanos, bajo la direccion del doctor Ricardo Bofill Pages y 
otros intelectuales.
    Interpreter. The seed of this civil society was planted on 
January 28, 1976, with the name of the Cuban Committee for 
Human Rights under the direction of Dr. Ricardo Bofill Pages 
and a small group of intellectuals.
    Mr. Hernandez. Desde su fundacion, el Comite Cubano Pro 
Derechos Humanos, ha abogado por el respeto a los Derechos 
Humanos en Cuba, y denunciado las flagrantes violaciones que 
ocurren en la isla.
    Interpreter. Since its creation, the Cuban Committee for 
Human Rights has advocated for their respective human rights in 
Cuba and has denounced the flagrant violations that occur on 
the island.
    Mr. Hernandez. La profunda crisis politica, economica y 
social que provoco la caida del muro de Berlin en Cuba, llevo a 
muchos otros cubanos a crear espacios civicos independientes 
del estado, para expresar sus frustraciones y buscar soluciones 
alternativas a sus problemas.
    Interpreter. The profound political, economic, and social 
crisis that the fall of the Berlin Wall created in Cuba led 
many other Cubans to create independent civil spaces, 
independent from the government, that is, in order to express 
their frustrations and search for alternative solutions to 
their problems.
    Mr. Hernandez. Asi comenzaron a surgir cientos de grupos en 
toda la isla, de diferentes corrientes profesionales, politicas 
e ideologicas.
    Interpreter. And thus, hundreds of groups of different 
professional, political, and ideological streams began to 
emerge across the island.
    Mr. Hernandez. Para ofrecerles una idea del crecimiento de 
la Sociedad Civil Cubana, en el 2003, el Instituto Cubano de 
Economistas Independientes, contabilizo en un censo, a mas de 
29,000 ciudadanos como miembros y simpatizantes de mas de 450 
organizaciones de la Sociedad Civil Cubana.
    Interpreter. To give you an idea of the growth of the Cuban 
civil society, in 2003, the Institute of Independent Economists 
of Cuba counted in a census more than 29,000 citizens as 
members and supporters of more than 450 civil society 
organizations.
    Mr. Hernandez. Un ano antes, el Movimiento Cristiano 
Liberacion, dio otra muestra de creciente pujanza de la 
Sociedad Civil Cubana, al entregar a la Asamblea Nacional del 
Poder Popular, una peticion ciudadana de referendum, sobre una 
serie de derechos politicos, economicos, sociales amparados en 
la Constitucion de la Republica de Cuba, y firmada por 11,020 
ciudadanos.
    Interpreter. One year before, the Christian Liberation 
Movement gave another sign of the growing strength of the 
dissidence in Cuba by presenting before the National Cuban 
Assembly a petition signed by 11,020 citizens for a referendum 
on a series of political, economic, and social rights.
    Mr. Hernandez. Este surge creciente de la sociedad civil, 
ha estado ocurriendo dentro de un marcado aumento de la 
represion por parte de las autoridades gubernamentales.
    Interpreter. This growth of Cuban civil society has 
occurred under a significant increase of repression by 
government authorities.
    Mr. Hernandez. Quizas el caso emblematico de esta 
represion, fue la primavera negra del 2003, en que 75 
activistas y lideres de la sociedad civil--yo incluido--fuimos 
apresados y condenados en juicios sumarisimos, a altas penas de 
carcel.
    Interpreter. Perhaps the one emblematic case of this 
repression was the Black Spring of 2003, where 75 activists and 
civil society leaders, myself included, were arrested and 
convicted in summary trials and sentenced to lengthy and unjust 
prison sentences.
    Mr. Hernandez. Este obvio intento de eliminar de raiz el 
movimiento civilista cubano e inocular el temor en la 
poblacion, solo sirvio de abono, para que muchos otros 
ciudadanos se unieran a los reclamos de libertad, como las 
Damas de Blanco, y el Movimiento de Blogueros Independientes.
    Interpreter. This crackdown obviously was intended to 
eliminate the roots of the Cuban civilian movement and instill 
fear in the population. But it only served as a call for many 
other citizens to join in the search for freedom, such as just 
the Ladies in White and the independent bloggers movement.
    Mr. Hernandez. Hoy en dia, la Sociedad Civil Cubana, se 
encuentra en una fase creciente de dinamismo y pluralismo. Cada 
vez mas consciente de que los ciudadanos tienen derechos 
inalienables, que el estado debe respetar.
    Interpreter. Today, Cuban civil society finds itself in the 
face of dynamic and pluralist growth, ever more conscious that 
citizens have inalienable rights that the state must respect.
    Mr. Hernandez. La represion a los activistas de la sociedad 
civil, aumenta por dia.
    Interpreter. Repression of civil society activists 
increases every day.
    Mr. Hernandez. El gobierno cubano, utiliza tacticas que 
pueden ser calificadas como terrorismo de estado.
    Interpreter. The Cuba Government uses tactics that can be 
considered state terrorism.
    Mr. Hernandez. Una nueva modalidad de represion, consiste 
en detenciones arbitrarias sin ninguna orden judicial, por 
breves periodos de tiempo, como un mecanismo de hostigamiento, 
intimidacion, desestabilizacion psicologica del detenido y la 
familia, para entre otros objetivos, evitar que los integrantes 
de la sociedad civil, ejerzan derechos inalienables, como es el 
de la libertad de expresion, de asociacion y de reunion.
    Interpreter. A new model of repression consists of 
arbitrary
 detentions without a court order for small periods of time as 
a mechanism of harassment, intimidation, psychological 
destabilization of the detainees and their family members to 
prevent them from exercising their inalienable rights to 
freedom of expression, association, and assembly.
    Mr. Hernandez. En los primeros 4 meses de este ano, la 
Comision Cubana de Derechos Humanos y Reconciliacion Nacional, 
una organizacion independiente de Derechos Humanos en Cuba, 
documento 2795 detenciones arbitrarias, para un incremento del 
58% comparado con igual periodo del tiempo del pasado ano, 
cuando fueron 1166.
    Interpreter. In the first 4 months of this year, the Cuban 
Commission of Human Rights and National Reconciliation, an 
independent human rights organization in Cuba, documented 2,795 
arbitrary detentions, an increase of 58 percent from the same 
period the year before, 1,166.
    Mr. Hernandez. Una de las caras mas crudas de la represion, 
son los mitines de repudios organizados por la fuerza represiva 
de los hermanos Castro, contra las Damas de Blanco.
    Interpreter. One of the cruelest faces of this repression 
is the repudiation rallies organized by the repressive forces 
of the Castro brothers against the Ladies in White.
    Mr. Hernandez. Del mismo modo, brigada de respuestas 
rapida, fuerzas paramilitares al servicio del gobierno, la 
emprenden a golpes contra cualquier acto civico, independiente 
y pacifico que organice la emergente y verdadera sociedad civil 
cubana.
    Interpreter. In the same way, rapid response brigades, 
paramilitary forces that serve the government, physically beat 
any independent, peaceful individual that tries to organize 
civil society activities.
    Mr. Hernandez. La impunidad de los represores, es un 
incentivo en su actuar.
    Interpreter. The impunity of the repressors is an incentive 
for their actions.
    Mr. Hernandez. Los hermanos Castro, no tienen limite en su 
crueldad.
    Interpreter. The Castro brothers do not have limits to 
their cruelty.
    Mr. Hernandez. Su naturaleza asesina, los llevo a fusilar a 
miles de personas a inicios del triunfo de la revolucion.
    Interpreter. Their murderous nature led them to execute 
thousands of people at the beginning of the revolution.
    Mr. Hernandez. Hoy, asesinan de forma sutil.
    Interpreter. Today, they kill in a more subtle way.
    Mr. Hernandez. No olvidemos la muerte en circunstancias muy 
extranas, de la lider de las Damas de Blanco, Laura Pollan 
Toledo, en octubre de 2011.
    Interpreter. We must not forget the death under very 
strange circumstances of the leader of the Ladies in White, 
Laura Pollan Toledo, in October 2011.
    Mr. Hernandez. Tampoco podemos olvidar las muertes en 
huelgas de hambre, de los presos politicos Orlando Zapata 
Tamayo, en febrero de 2010, a quien le negaron el agua por 18 
dias. Y, Wilman Villar Mendoza, en enero de 2012, a quien 
torturaron introduciendolo en una tapiada oscura, humeda y 
pestilente celda de castigo.
    Interpreter. Also we cannot forget the deaths on hunger 
strike of political prisoners Orlando Zapata Tamayo in February 
2010, who was denied water for 18 days, and Wilman Villar 
Mendoza in January 2012, who was tortured by being placed in a 
boarded up, dark, damp, and putrid cell.
    Mr. Hernandez. Juan Wilfredo Soto, fue otro opositor 
pacifico que murio 2 dias despues de que agentes de la Policia 
Nacional Revolucionaria, le propinaran una salvaje pateadura, 
en junio de 2011.
    Interpreter. Juan Wilfredo Soto, a peaceful activist, died 
2 days after the Revolutionary National Police agents brutally 
beat him in June 2011.
    Mr. Hernandez. En un reciente informe, el Comite Contra la 
Tortura de las Naciones Unidas, critico las detenciones 
arbitrarias, los actos de repudio, la falta de independencia 
entre los Poderes Ejecutivo, Legislativo y Judicial. La falta 
de informacion sobre muerte en custodia policial de Juan 
Wilfredo Soto, y pidio una investigacion imparcial sobre las 
muertes de 202 presos que fallecieron en las carceles cubanas, 
entre 2010 y 2011.
    Interpreter. In a recent report, the United Nations 
Committee Against Torture criticized the arbitrary detentions, 
the acts of repudiation, lack of independence between the 
executive, legislative, and judicial branches; lack of 
information on the death under police custody of Juan Wilfredo 
Soto, and requested an impartial investigation of the deaths of 
202 prisoners that occurred in Cuban jails between 2010 and 
2011.
    Mr. Hernandez. El exterminio contra quienes disienten o se 
oponen a los Castro, es politica de estado.
    Interpreter. Extermination against those who dissent and/or 
oppose the Castros is the policy of the state.
    Mr. Hernandez. El camino por el que transita la verdadera 
Sociedad Civil Cubana, esta llena de obstaculos.
    Interpreter. The path for a true Cuban civil society is 
full of obstacles.
    Mr. Hernandez. Las viola . . . Las violaciones a los 
derechos fundamentales de las personas, estan 
institucionalizadas en la Constitucion de la Republica de Cuba.
    Interpreter. Violations of fundamental rights are enshrined 
in the Constitution of the Republic of Cuba.
    Mr. Hernandez. El Codigo Penal, tiene tipificaciones 
juridicas tan ambiguas, como el delito de peligrosidad social 
pre-delictiva, que permiten enjuiciar a todo ciudadano que el 
gobierno considere que presenta una amenaza a su poder.
    Interpreter. The penal code includes articles with 
ambiguous provisions, such as precriminal, social, and 
dangerous, which are used to prosecute civil society activists 
deemed by the government as dangerous.
    Mr. Hernandez. Amnistia Internacional estima que existen 
alrededor de 5000 presos en las carceles de Cuba, extinguiendo 
sancion entre 1 y 4 anos de privacion de libertad, por los 
supuestos delitos de peligrosidad social, junto a personas con 
delitos probados.
    Interpreter. Amnesty International estimates that there are 
around 5,000 prisoners in Cuba serving sentences between 1 and 
4 years for allegedly being socially dangerous, and they serve 
their sentences alongside individuals whose crimes have been 
proven.
    Mr. Hernandez. Tambien existe la Ley 88 o ley de Proteccion 
de la Independencia Nacional y la Economia de Cuba. Otra 
aberracion juridica, destinada a cercenar los derechos 
fundamentales e inalienables de los ciudadanos cubanos. Esta 
ley, es conocida a nivel nacional e internacional, como Ley 
Mordaza.
    Interpreter. In addition, Law 88, the law for the 
Protection of the National Independence and Economy of Cuba, is 
another legal aberration by which the government curtails the 
fundamental and inalienable rights of Cuban citizens. This law 
is nationally and internationally known as the Censorship Law.
    Mr. Hernandez. Espero que se den cuenta, que este 
ordenamiento juridico, liberticida por naturaleza, guillotina 
los derechos civiles, politicos, economicos, sociales y 
culturales de los cubanos.
    Interpreter. I hope you realize that this legal framework 
is
 tyrannical by nature, and it slashes away the civil, 
political, economic, social, and cultural rights of the Cuban 
people.
    Mr. Hernandez. Podemos ser ironicos y decir que en Cuba no 
se violan los Derechos Humanos, simplemente, porque no existen.
    Interpreter. We can be ironic and say that in Cuba, the 
government does not violate human rights simply because human 
rights do not exist.
    Mr. Hernandez. El regimen de los hermanos Castro, niega a 
los cubanos el derecho a los derechos.
    Interpreter. The regime of the Castro brothers denies 
Cubans their right to rights.
    Mr. Hernandez. A pesar de esto, la Sociedad Civil Cubana, 
aboga por los derechos de los cubanos, de forma pacifica, 
tomando como ejemplo, la doctrina de la lucha no violenta, 
promovida por Ghandi y el doctor Martin Luther King, Jr.
    Interpreter. In spite of this, Cuban civil society 
advocates for the freedom of all Cubans in a peaceful way, 
based on the precepts of nonviolent struggle practice by Gandhi 
and Dr. Martin Luther King, Jr.
    Mr. Hernandez. Desde la sociedad civil, emergen cada vez 
mas propuestas para mejorar la calidad de vida de los cubanos, 
que van desde la busqueda de soluciones a problemas sociales 
concretos, hasta las amplias exigencias publicas al gobierno 
que respete los Derechos Humanos y los valores democraticos.
    Interpreter. From civil society, we see an increasing 
number of proposals aimed at improving the quality of life of 
all Cubans, from concrete social demands to broad public 
demands for the government to respect human rights and 
democratic values.
    Mr. Hernandez. En su lucha por la democracia, la Sociedad 
Civil Cubana, siempre ha planteado la reconciliacion entre 
todos los cubanos y el dialogo basado en el respeto a todos los 
Derechos Humanos, civiles y politicos, como procesos necesarios 
para lograr una Cuba verdaderamente democratica.
    Interpreter. In their fight for democracy, Cuban civil 
society has always advocated for national reconciliation and 
dialogue based on their respect of all human, civil, and 
political rights as a necessary process to achieve a truly 
democratic Cuba.
    Mr. Hernandez. Para concluir, pido respetuosamente a este 
comite, que lleve a la practica el titulo de esta audiencia.
    Interpreter. To conclude, I would respectfully ask this 
committee to put into practice the title of this hearing.
    Mr. Hernandez. Que se solidarice con la emergente y 
verdadera Sociedad Civil Cubana y condene a todos los niveles 
la reprisi . . . La represion existente en Cuba.
    Interpreter. Please, show solidarity with the growing and 
genuine Cuban civil society and condemn all levels of 
repressions that take place in Cuba.
    Mr. Hernandez. Que aune voluntades con gobiernos y 
parlamentarios democraticos de todo el mundo, instituciones 
multilaterales y organizaciones no gubernamentales 
internacionales, para que apoyen a la verdadera Sociedad Civil 
Cubana.
    Interpreter. I encourage you to seek other democratic 
governments and parliamentarians from around the world, 
multilateral institutions, and international NGOs to support 
the true Cuba.
    Mr. Hernandez. En este sentido, les ruego tomen en cuenta 
las palabras de Elie Wiesel, Premio Nobel de la Paz y 
sobreviviente del Holocausto, cuando dijo: ``Hay que tomar 
partido. La neutralidad ayuda al opresor, nunca a la victima. 
La accion es el unico remedio contra la indiferencia.''
    Interpreter. In this sense, please take into account the 
words of Elie Wiesel, Nobel Peace Prize winner and Holocaust 
survivor, when he said, ``We must always take sides. Neutrality 
helps the oppressor, never the victim. Action is the only 
remedy to indifference.''
    Mr. Hernandez. Muchas gracias.
    Interpreter. Thank you very much.
    [The prepared statement of Mr. Gonzalez follows:]

             Prepared Statement Normando Hernandez Gonzalez

    Honorable Chairman Robert Menendez, Honorable Ranking Member Marco 
Rubio, and members of the subcommittee, when I read the topic of this 
hearing, I did nothing but rejoice. Events like this show the world 
that Cubans are not alone on their long and difficult road to freedom. 
To be against the repression that exists in Cuba is to be against the 
totalitarian regime of the Castro brothers. It is to be in favor of the 
true, emerging Cuban civil society.
    I use the terms true and emerging Cuban civil society to 
distinguish from those organizations that call themselves civil 
society, when in reality they are created and manipulated by the Cuban 
Government. Independent civil society in Cuba is composed of self-
created citizen groups--established without authorization from the 
government--to defend their interests before the state. This includes 
what is known today as the dissidence, the peaceful opposition, the 
human rights movement, independent political parties, bloggers, and 
professional and intellectual associations.
    The seed of organized civil society was planted on January 28, 
1976, with the creation of the Cuban Committee for Human Rights 
(CCPDH), under the direction of Dr. Ricardo Bofill Pages and a small 
group of intellectuals. Since its foundation, the CCPDH has advocated 
for the respect of human rights in Cuba and denounced the flagrant 
violations that occur on the island.
    The profound political, economic, and social crisis that the fall 
of the Berlin wall provoked in Cuba led many other Cubans to create 
independent civic spaces in order to express their frustrations and 
search for alternative solutions to their problems. Thus, hundreds of 
groups of different professional, political, and ideological streams 
began to emerge across the island. To give you an idea of the growth of 
the Cuban civil society, in 2003, the Institute of Independent 
Economists of Cuba counted in a census more than 29,000 citizens as 
members and supporters of more than 450 independent, nongovernmental 
organizations. One year before, the Christian Liberation Movement gave 
another sign of the growing strength of the dissidence in Cuba by 
presenting before the Cuban National Assembly a petition signed by 
11,020 citizens for a referendum on a series of political, economic, 
and social rights.
    The growth of Cuban civil society has occurred under a marked 
increase of repression by government authorities. Perhaps one 
emblematic case of this repression was the ``Black Spring'' of 2003, in 
which 75 activists and civil society leaders, myself included, were 
convicted in summary trials and sentenced to lengthy, unjust prison 
sentences. This crackdown obviously was intended to eliminate the roots 
to the Cuban civilian movement and instill fear in the population. 
However, it only served as a call for many other citizens to join in 
the search for of freedom, such as the Ladies in White and the 
independent bloggers movement. Today, Cuban civil society finds itself 
in a phase of dynamic and pluralist growth, ever more conscious that 
citizens have inalienable rights that the state must respect.
    Repression of civil society activists increases every day. The 
Cuban Government, using tactics that can be considered state terrorism, 
has created a new model of repression that consists of arbitrary 
detentions, without any judicial order, for small periods of time as a 
mechanism of harassment, intimidation, psychological destabilization of 
activists and their family members to prevent them from exercising 
their inalienable rights to freedom of expression, association, and 
assembly.
    In the first 4 months of this year, the Cuban Commission of Human 
Rights and National Reconciliation, an independent human rights 
organization in Cuba, documented 2,795 arbitrary detentions, an 
increase of 140 percent from the 1,166 cases of documented arrests that 
took place during the same period of time last year. One of the 
cruelest faces of this repression is the repudiation rallies organized 
by the repressive forces of the Castro brothers against the Ladies in 
White. In the same way, the Rapid Response Brigades, paramilitary 
forces that serve the government, physically beat any independent, 
peaceful individual that tries to organize civil society activities. 
The impunity of the repressors is an incentive for their actions.
    The Castro brothers do not have limits in their cruelty. Their 
murderous nature led them to execute thousands of people at the 
beginning of the revolution. Today, they kill in a more subtle form. We 
must not forget the death in very strange circumstances the leader of 
the Ladies in White, Laura Pollan Toledo, in October 2011. Also, we 
cannot forget the deaths on hunger strike of political prisoners, 
Orlando Zapata Tamayo in February 2010, who was denied water for 18 
days, and Wilman Villar Mendoza in January 2012, who was tortured by 
being placed in a boarded up, dark, damp, and putrid cell. Also, in May 
2011, peaceful activist, Juan Wilfredo Soto, died 2 days after the 
Revolutionary National Police agents savagely beat him. In a recent 
report, the United Nations Committee Against Torture criticized the 
arbitrary detentions, acts of repudiation, lack of independence between 
the executive, legislative, and judicial branches, lack of information 
on the death in police custody of Juan Wilfredo Soto, and requested an 
impartial investigation on the deaths of 202 prisoners that occurred 
between 2010 and 2011. Extermination against those who dissent and/or 
oppose the Castros is the policy of the State.
    The path for a true Cuban civil society is full of obstacles. The 
violations of fundamental rights are institutionalized in the 
Constitution of the Republic of Cuba. The Penal Code includes articles 
with ambiguous provisions such as ``precriminal social dangerousness,'' 
which are used to prosecute civil society activists. Amnesty 
International estimates that there are around 5,000 prisoners in Cuba 
serving sentences between 1 and 4 years for allegedly being socially 
dangerous and they serve their sentences alongside individuals whose 
crimes have been proven. In addition, Law 88, the Law for the 
Protection of the National Independence and Economy of Cuba, is another 
judicial aberration by which the government curtails the fundamental 
and inalienable rights of Cuban citizens. This law is nationally and 
international known as the Censorship Law. I hope you realize that this 
legal framework is tyrannical by nature and guillotines the civil, 
political, economic, social, and cultural rights of the Cuban people. 
We can be ironic and say that in Cuba, the government does not violate 
human rights simply because human rights do not exist. The regime of 
the Castro brothers denies Cubans their right to rights.
    In spite of the conditions I just described to you, Cuban civil 
society fervently advocates for the freedom of all Cubans in a peaceful 
way, based on the precepts of nonviolent struggle practiced by Mahatma 
Gandhi and Dr. Martin Luther King, Jr. From civil society emerge ever 
more proposals that aim to improve the quality of life of all Cubans, 
from concrete social demands to broad public demands to respect human 
rights and democratic values. In their actions, Cuban civil society has 
always advocated for national reconciliation and dialogue based on the 
respect to all human, civil, and political rights as a necessary 
processes to achieve a truly democratic Cuba.
    To conclude, I respectfully ask this committee to put into practice 
the title of this hearing. Please, show solidarity with the growing and 
genuine Cuban civil society, and condemn all levels of repression that 
take place in Cuba. I also ask you to encourage other democratic 
governments and parliamentarians from around the world, multilateral 
institutions, and international NGOs to support Cuba's civil society 
activists. In this sense, please take into account the words of Elie 
Wiesel, Nobel Peace Prize winner and Holocaust survivor when he said: 
``We must always take sides. Neutrality helps the oppressor, never the 
victim. Silence encourages the tormentor, never the tormented . . . 
action is the only remedy to indifference, the most insidious danger of 
all.''
    Thank you.

    Senator Menendez. Thank you very much.
    We appreciate your testimony, and keep up with your 
English. It was going pretty good there at the beginning.
    So let me now welcome from the U.S. Interests Section in 
Havana, Sara Marta Fonseca Quevedo. She is the spokesperson for 
the National Civic Resistance Front, a Cuba prodemocracy 
leader.
    We will hear from her first, and then we will hear from 
Jorge Luis Garcia Perez ``Antunez,'' who, as I said earlier, 
has been a political activist inside of Cuba and served a long 
time in Castro's jails.
    So with Sara going first, we will need to do the same 
thing. We will need to translate what you say so we will have 
to ask you to stop in certain blocks of time.
    Bienvenido.
    [Pause.]
    Senator Menendez. This is Senator Menendez. We see you, and 
we hear you. So we will ask Sara Marta Fonseca Quevedo to start 
first.
    Ms. Fonseca. Le voy a decir--si. Bueno, buenos dias--buenas 
tardes.--Cuba. Que Dios les bendiga y quisiera decirles que 
tenemos a Jose Daniel Ferrer en, en, en linea. Debemos 
aprovechar esta oportunidad. No, no vaya a ser que, que 
interrumpan la comunicacion para que el les hable primeramente.
    Senator Menendez. OK.
    Interpreter. Good morning. Good afternoon, actually 
already.
    I wanted to bring to your attention that we have Jose 
Daniel Ferrer on the line, and I think we need to take this 
opportunity right now just in case the communication gets cut 
off.
    Senator Menendez. All right. So we would be happy to then 
go to Jose Daniel Ferrer Garcia, who is the leader of the Cuba 
Patriotic Union from Santiago de Cuba.
    Mr. Ferrer Garcia, please?
    Mr. Ferrer. Si, oalo? Hello?
    Senator Menendez. Si, senor, ga . . . Ferrer Garcia, puede 
ir adelante. Es el senador Melendez.

STATEMENT OF JOSE DANIEL FERRER GARCIA, LEADER, CUBA PATRIOTIC 
                 UNION, SANTIAGO DE CUBA, CUBA

    Mr. Ferrer. Si, senador, ocomo esta? Buenas tardes para 
todos. Buenas tardes al senor Michael Rubio tambien y a los 
demas ahi presentes. Un fuerte y fraterno abrazo, ono? De 
decenas de opositores pacificos aca en el oriente del pais.
    Interpreter. The interpreter would like to say that the 
sound quality is very poor. So I am doing my best.
    Good afternoon to all of you, and warmest greetings from 
all of us peaceful activists in the eastern part of the 
country.
    Senator Menendez. Adelante.
    Interpreter. Go ahead.
    Mr. Ferrer. Si, ome escuchan?
    Senator Menendez. Si.
    Mr. Ferrer. Yo me pierdo un poco--pierdo un poco su voz. Me 
parece que hay problemas con la comunicacion. Pues nada, desde 
aca, desde el oriente--le reitero un abrazo fraterno. Nosotros 
por aca, la Union Patriotica de Cuba y Bonilla, a otros grupos 
opositores que luchan con muchisima energia, con muchisima 
firmeza, con muchisimo valor, por los cambios que tanto Cuba 
necesita. Y, les saludamos y les recordamos de que explicar el 
no, para el pueblo cubano, la solidaridad y el apoyo del mundo 
libre, no solamente el apoyo de la solidaridad de la comunidad 
cubana exiliada, si no tambien de la, de las personas, de los 
lideres del mundo libre, que desean que se solidaricen con el 
sufrido pueblo cubano. Durante los ultimos meses, el reto 
principal de nuestra organizacoion y de la oposicion en 
general, ha sido enfrentar la fuerte represion, el acoso 
constante de los organos represivos, detenciones constantes de 
mayor o menor duracion. El hecho tambien de que en un 
trasnocho--siendo encarcelado arbitrariamente. Ya la Union 
Patriotica de Cuba tiene 6 presos politicos en las carceles del 
oriente del pais. Ahora tenemos otro clica en Cuba, hay 2 que 
estamos por confirmar, que tambien . . .
    Senator Menendez. He has a lot to say, obviously.
    Interpreter. He does. Well, again, I think have we have an 
audio problem, but I was saying I would like to give you our 
warmest greetings here from all the activists and other groups 
that oppose the government that are so firmly and courageously 
fighting for this change that we very much need.
    And we would like to remind you all that it is vital for 
the Cuban people to have the support and solidarity from the 
free world, not only from our brothers and sisters in the 
United States, but from all over the world because the Cuban 
people is suffering a lot. We are facing a lot of challenges, 
and mostly the mounting repression by the government and the 
never-ending arrests.
    We have tons of activists that have been jailed arbitrarily 
and are considered now political prisoners. And actually, today 
we have fresh news a new activist has been jailed for 8 years.
    Senator Menendez. All right. If you can ask him to please 
go slowly and stop at certain intervals so we can get his 
translation?
    Interpreter. Que, que procedas en esto y, y hagas pausas 
para que puedan traducir.
    Mr. Ferrer. Si, de acuerdo. De acuerdo. Entendido. Le decia 
que el principal reto ha sido enfrentar la represion, ono? De 
el regimen castrista. Precisamente porque nuestra agrupacion 
pretende maxificar y dinamizar la lucha no violenta a lo largo 
y ancho del pais, en unidad con otros grupos pacificos, con 
otros grupos de oposicion no violenta.
    Interpreter. I was saying that our biggest challenge is to 
face the repression by the Castro government, and our group is 
trying to make massive mobilization of nonviolent struggles all 
over the country, nonviolent fight.
    Mr. Ferrer. Para poder contrarrestar la represion, ono? De 
los organos de la policia politica y demas cuerpos represivos 
del regimen castrista, se necesita, ono? De efectiva propaganda 
y de efectivos medios de comunicacion, es decir, en manos de 
los opositores, en manos de nuestros activistas. Radio Marti 
era un importantisimo papel en este proceso no democratizador 
que llevamos adelante en nuestra isla. Y, necesitamos del apoyo 
del mundo libre, para poder burlar y para poder salir del 
aislamiento, ono? Y, hacia la Internet y hacia otros medios, 
otras vias de comunicacion que el regimen nos impone.
    Interpreter. All this to counteract the violent repression 
by the regime. We need to send our message out. We need our 
activists to have access to the media so that we can try to get 
the message out about the importance of this democratic process 
that is just now starting.
    We want help from the free world to get out of the 
oppression, have access to the Internet, and some other media 
out there.
    Senator Menendez. Can you--the gentleman also mentioned. 
Esperese un momentico, por favor.
    Mr. Ferrer. Son la mayoria de costumbres a decir que--si, 
claro. Si.
    Interpreter. Un momento.
    Senator Menendez. Yes, I understood that he said that Radio 
Marti was very important to free information inside of Cuba. I 
don't know if you heard that?
    Interpreter. I may have missed that. Sorry.
    Senator Menendez. OK. Let the record reflect that in Mr. 
Jose Daniel Ferrer Garcia's comment, he spoke about Radio Marti 
as an indispensable tool in the flow of information inside for 
the Cuban people.
    OK.
    Mr. Ferrer. Si. Le decia para que por aca las personas 
mayores acostumbran a mencionar un refran que dice de que el 
frio se quita andando. Nosotros creemos que el temor del pueblo 
cubano, el miedo fruto del terror de muchas decadas, ono? De 
represion, se quita actuando. Por eso, estamos enfrascados, 
ono? En que vamos a hacerle de actividades lo mas creativas, lo 
mas variadas posibles se filmen, se tomen imagenes 
audiovisuales, y luego se pasen de mano en mano, entre toda la 
poblacion, para que precisamente el pueblo vea que si se puede 
luchar por los derechos y libertades que nos vienen--hace mas 
de medio siglo.
    Interpreter. There is an old saying that people, especially 
older people like to say, and that is that when you are cold, 
you get warm by walking. And I would like to say that when you 
are in fear, you get away with your fear by acting.
    And we need to find creative ways to send our message out, 
like have audiovisual images that can be disseminated to the 
population to show them that, yes, we can. We can fight for the 
freedoms and the liberties that have been taken away from us 
for over half a century.
    Mr. Ferrer. Para lograr esto y--se requiere, ono? De medios 
materiales. Por ejemplo, los soportes digitales, discos de DVD 
e . . . estan siendo el medio, ono? Mas utilizado por nosotros. 
Los resultados los notamos de dia en dia, de semana en semana. 
Zonas donde para nada se movia, la poblacion para nada--habian 
exigencia en cuanto a cambio al respeto de lo Derechos Humanos, 
en la medida en que ven que en otros sitios vecinos se esta 
haciendo, se esta luchando por la libertad y el cambio. 
Entonces, comienzan a moverse las cosas y comienzan las 
acciones y comienzan las actividades, las protestas, y esto se 
va generalizando. Pero, necesitamos ver el apoyo del mundo 
libre para poder romper con el monopolio informativo del 
regimen, para que esto llegue de manera masiva a todas partes. 
Porque, Radio Marti es el medio mas efectivo, como dije 
anteriormente, para llegar al pueblo cubano. Pero, en las 
grandes ciudades sufre muchisima interferencia. Entonces, 
reproducir programaciones de TV Marti y Radio Marti, nuestras 
imagenes, nuestros videos, nuestras informaciones, es vital 
para que llegue a la poblacion. Con eso se va quitando el temor 
y la poblacion va reaccionando. El pueblo cubano en su mayoria, 
desea y quiere cambio. Lo notamos diariamente en las calles de 
Cuba.
    Interpreter. We need material support. We need information 
media, more specifically DVD. We can see the change day by day 
by using them.
    For example, in areas where there was no activity, no 
thirst for changes or anything, when they see that other areas 
are changing, are doing things, they start getting motivated 
and organizing more activities and more protests. And that is 
why, again, I am saying we need help from the free world to 
break this informational monopoly. We need our information to 
get everywhere.
    More specifically, DVDs because there is a lot of 
interference of the actual media. So if we can burn DVDs with 
our videos, our information, our clips, we can disseminate it 
to the rest of the population, and their fear will start going 
away, and they will start reacting because the Cuban people 
does want to change. We feel that on a daily basis out there on 
the streets.
    Senator Menendez. I want to ask Mr. Daniel Ferrer Garcia to 
summarize so that we can turn to his colleagues. I don't want 
to lose our video feed from Havana.
    Interpreter. Que si, que p . . . Que con--digamos, un . . . 
una palabra para concluir, para entonces pasar con.
    Mr. Ferrer. Si, como no. Como no. Si. Nada, que la realidad 
es que la poblacion cubana, cada vez esta mas descontenta, cada 
vez mas cubanos desean el cambio. Cada vez mas cubanos pierden 
el miedo, y que en la medida de que la fuerzas democraticas 
internas, las fuerzas democraticas del exilio, y la--los 
democratas del mundo libre trabajemos, aunemos esfuerzos, la re 
. . . La libertad del cambio en Cuba sera una realidad mas 
pronto de lo que muchos creen.
    Interpreter. Basically, the Cuban people is not happy 
anymore. They do want change. Their fear is going away. We want 
help from the people that are in exile in democratic countries, 
and we need democratic countries as well to join our efforts 
because Cuba will be a free country before we know it.
    Senator Menendez. Thank you very much.
    Let me turn to Sara Marta Fonseca Quevedo.

STATEMENT OF SARA MARTA FONSECA QUEVEDO, SPOKESPERSON, NATIONAL 
  CIVIC RESISTANCE FRONT, CUBAN PRO-DEMOCRACY LEADER, HAVANA, 
                              CUBA

    Ms. Fonseca. Si, bueno, reitero. Hola, buenas tardes y, y 
nuestro agradecimiento por este importante contacto que se ha 
establecido. Muchas gracias por este contacto. Bueno, soy 
miembro del Partido Pro Derechos Humanos de Cuba, afiliado a la 
Fundacion Andres Sajaro.
    Interpreter. Good afternoon, everybody, and thanks again 
for being in contact with us. We really appreciate it. I am 
from the human rights group in Cuba.
    Ms. Fonseca. Vocera del Frente Nacional de Resistencia 
Civica y Desobediencia Civil Orlando Zapata, Dama de Blanco y 
tambien del Movimiento Feminista Rosa Park.
    Interpreter. The interpreter would request repetition. It 
is the names of all the groups that she belongs with.
    Senator Menendez. Yes. Can you ask her to repeat and to go 
as slowly as possible since we have transmission challenges 
here?
    Interpreter. Si puede, despacio que repitas, porque parece 
que no se.
    Ms. Fonseca. Si, le decia que tambien soy vocera del Frente 
Nacional de Resistencia Civica y Desobediencia Civil Orlando 
Zapata. Dama de Blanco y del Movimiento Feminista por los 
Derechos Civiles Rosa Park.
    Interpreter. I was saying I am a member of the National 
Front for Civilian Disobedience Group, Orlando Zapata, the 
Ladies in White, and the Feminist Movement for Civil Rights, 
Rosa Parks.
    Ms. Fonseca. Por nuestra actividad, por nuestro activismo 
en, en las calles, hemos sido victimas de numerosas 
represiones. La policia politica, pues, nos ha reprimido en 
muchas ocasiones, hasta llegar a, a atacar alto--haciendo ac . 
. . actos de terrorismo de estado, en nuestras propia vivienda.
    Interpreter. Because of the activist activities that we 
carry out on our streets, we have been victims of several 
repressions, mostly by the political police who have even 
committed acts of state terrorism in our own homes.
    Ms. Fonseca. Todo por alzar nuestras voces reclamando el 
respeto a los Derechos Humanos, democracia y libertad para el 
pueblo de Cuba.
    Interpreter. All of this just because we voiced our wish to 
have our human rights respected, we want democracy, and we want 
the freedom of the Cuban people.
    Ms. Fonseca. Hemos sido reprimidos, pero, tambien hemos 
recibido la aceptacion del pueblo cubano.
    Interpreter. We have been repressed, but we have also 
received the acceptance of the Cuban people.
    Ms. Fonseca. Y, esa satisfaccion, nos mueve a continuar 
nuestra lucha, por instaurar una, una verdadera democracia en 
Cuba.
    Interpreter. And that satisfaction motivates us to continue 
our fight to get a truly democratic Cuba.
    Ms. Fonseca. Es muy bueno cuando el pueblo o las personas 
de, del pueblo se nos acercan, para apoyarnos.
    Interpreter. It is very good when we see people from other 
towns and cities come to us to support us.
    Ms. Fonseca. Nos hace sentir que nuestra lucha esta 
cumpliendo su objetivo y que los cambios ya son inevitables, 
que muy pronto nuestra patria volvera a sonreir a la democracia 
y a, a la libertad.
    Interpreter. It makes us feel that our fight is finally 
reaching its objective that change is near and that very soon 
our Cuba will be a democratic and free country.
    Ms. Fonseca. Para nosotros es muy importante cualquier tipo 
de apoyo, sea con la informacion difundible. Lo que sucede en, 
en, en la, en la oposicion, difundirlo tanto nacionalmente como 
internacionalmente.
    Interpreter. For us, it is very important to have support,
 mostly in terms of disseminating information both domestically 
and internationally.
    Ms. Fonseca. Son muchos los miembros del Partido Comunista 
de Cuba que han entregado su carne despues de ver como 
opositores somos reprimidos, simplemente por defender la 
democracia.
    Interpreter. Several members of the Cuban Communist Party 
have turned in their ID cards when they have seen how we have 
been oppressed just by expressing a different opinion.
    Ms. Fonseca. Nuestro, nuestro objetivo, lo vemos cada vez 
mas cerca. Ya no es el mismo pueblo que permanecia en el 
silencio. Cada vez son mas las personas que se nos unen, mas 
las personas que nos apoyan.
    Interpreter. Our objective is drawing near. We are no 
longer the people that remain silent, and we have more people 
joining us and supporting us.
    Ms. Fonseca. Quisiera, me disculpen cualquier--no, no 
vinimos preparados. No se. Ni siquiera sabiamos para que 
veniamos. Fue una medida de precaucion que no nos avisaran por 
telefono.
    Interpreter. I am sorry I didn't have anything scripted. We 
were not ready. As a precaution, we were not told over the 
phone what we would be talking about.
    Ms. Fonseca. Nuestro hermano Jorge Luis Garcia Perez 
Antunez, ha tenido que caminar kilometros para poder--y, 
brincar cercas para poder llegar hasta aqui, burlando la 
policia politica.
    Interpreter. My colleague here, Jorge Luis Perez Antunez, 
had to walk kilometers to get here just so the political police 
wouldn't catch him.
    Ms. Fonseca. Y, yo me encuentro convaleciente de unos dias 
que estuve enferma, pero, siempre pendiente a todas las 
actividades que realizan nuestras organizaciones.
    Interpreter. And I am getting better. I was sick for a few 
days, but I am always up to speed on what everybody else is 
doing.
    Senator Menendez. We appreciate your testimony. We will go 
through it a little bit more when we ask questions. But let me 
turn to Mr. Antunez.

    STATEMENT OF JORGE LUIS GARCIA PEREZ ANTUNEZ, POLITICAL 
                    DISSIDENT, HAVANA, CUBA

    Mr. Perez. oYa? Muy buenas tardes, senora Robertson, 
secretaria adjunta al Departamento de Estado. Muy buenas tardes 
a los senadores Marco y al resto de los, de los senadores ahi 
presentes.
    Interpreter. Good afternoon, everybody. Good afternoon, 
Mrs. Jacobson, Assistant Secretary of State, Senator Menendez, 
and everybody else present there.
    Mr. Perez. Un abrazo muy especial a mi querido hermano 
Normando Hernandez Gonzalez, quien se encuentra ahi.
    Interpreter. Very special greetings to my friend Normando 
Hernandez Gonzalez, who is there with you.
    Mr. Perez. Pa mi constituye un, un jubilo y un aliento, y 
una emocion, que sea precisamente Normando Hernandez Gonzalez, 
alguien que comparti--con, con el que comparti prision 
politica, con el sufrimos el efecto de golpes, la celda de 
castigo, el hambre.
    Interpreter. It makes me very proud and excited to see 
Normando Hernandez Gonzalez there today because we shared a 
political prison. We both suffered beatings, oppression, and 
hunger.
    Mr. Perez. Creo que nadie mejor que el, que es el fundador 
de, de reporteros y periodistas dentro de la propia prision, es 
el patriota inclaudicable.
    Interpreter. He is like the best example of our homeland
 because he is a self-taught journalist that used to 
disseminate information in the prison. Es, oque? Perdon. oEl 
patriota?
    Mr. Perez. Que tanto sufrio con dignidad y con decoro, los 
embates del presidio politico, puede representarnos alli como 
el.
    Interpreter. And I am very proud to see him represent us 
there today because he suffered all the oppression with a lot 
of dignity and decorum.
    Mr. Perez. Una de las cosas importantes que decia mi 
querida hermana Sara Marta Fonseca Quevedo, quien tengo aqui a 
mi lado, es que precisamente tanto ella como yo, nos enteramos 
de, de esta--o sea, de este evento, precisamente en este lugar. 
Y, creo que eso es una prueba fehaciente del nivel de represion 
en Cuba.
    Interpreter. Something very important that my colleague 
Sara Marta Fonseca just said was that we found out about this 
event with very short notice, and I think that shows the degree 
of oppression that we are under.
    Mr. Perez. Y, que mas prueba que del nivel de represion, 
que tener que venir del centro del pais, de la provincia 
central y brincando cercas, golpeando como si fuera un 
delincuente, para participar en un evento, que en cualquier 
parte del mundo, en un pais democratico, algo tan normal.
    Interpreter. And that speaks volumes of the repression that 
we feel. I had to, like she said, walk kilometers, hide behind 
trees and bushes as if I was some kind of criminal to attend an 
event that in any other free and democratic country in the 
world would be an everyday thing.
    Mr. Perez. Pero, gracias a Dios y gracias a esta seccion de 
interes, que tanto nos ha apoyado, estamos aqui de manera 
dificil, porque hemos pasado muchas dificultades, pero, estamos 
aqui, y estamos participando.
    Interpreter. But thank God and thanks to the Interests 
Section for all the support given to us, we are here. It has 
been hard, but we are here, and we are involved.
    Mr. Perez. Quiero que conozcan que hace apenas unos dias, 
producto a la represion brutal de un descomunal acto de 
repudio.
    Interpreter. I wanted you to know that a few days ago, as a 
result of brutal repression to an act of repudiation----
    Mr. Perez. Fui testigo de la muerte de Antonia Rodriguez, 
en la Ciudad de Santa Clara.
    Interpreter [continuing]. I witnessed the death of Antonio 
Ruiz in the city of Santa Clara----
    Mr. Perez. Donde un grupo de pacificos, activistas pro 
democraticos nos reuniamos.
    Interpreter [continuing]. Where a group of pro-democratic, 
peaceful activists, myself included, were gathered----
    Mr. Perez. Para hablar de libertad, para hablar de justicia 
y de Derechos Humanos.
    Interpreter [continuing]. To talk about liberty, freedom, 
justice, and human rights.
    Mr. Perez. Pero, no solo eso, senores senadores. En estos 
precisos momentos, una joven cubana negra, lleva varios dias en 
huelga de hambre en Santa Clara.
    Interpreter. But that is not all, Mr. Senator. At this very 
moment, there is a black Cuban woman that has been on a hunger 
strike for several days in Santa Clara.
    Mr. Perez. Y, escuchenos bien, esta en huelga de hambre, 
Damaris Moya Portieles, en protesta, porque altos oficiales de 
la policia politica le amenazaron con violarles sexualmente a 
su hija de 6 anos de edad.
    Interpreter. And hear me out here, Damaris Moya Portieles 
is on a hunger strike because the political police threatened 
to sexually abuse and rape her 6-year-old daughter.
    Mr. Perez. Y, no estamos hablando de la Cuba del ano 50--
antes del ano 1959, ni estamos hablando de un pais de America 
Latina, ni estamos hablando de la Sudafrica de pies-bota. 
Estamos hablando de la Cuba del, del siglo XXI.
    Interpreter. And we are not talking about the Cuba from 
before 1959, of any other country in Latin America or any other 
remote area in Africa. We are talking about the Cuba of the 
21st century.
    Mr. Perez. Y, cuando suceden cosas como esta, como el 
asesinato de Orlando Zapata Tamayo, de Wilman Villar Mendoza, 
de Pedro Ruiz Boitel.
    Interpreter. I am sorry. I can't hear what he was saying.
    [Pause.]
    Mr. Perez. Este, cuando suceden crimenes tan horrendos como 
el de Orlando Zapata Tamayo, como el Wilman Villar Mendoza, 
como el de Pedro Ruiz Boitel, y como el de la abuelita Antonia.
    Interpreter. When horrible killings happen, such as the one 
of Mr. Zapata Tamayo, Wilman Villar Mendoza, Pedro Luis Boitel, 
and Abuela, which is Grandmother Antonia----
    Mr. Perez. Antonia. Cuando suceden estas cosas, tenemos que 
estar conscientes que ni con aumento de remesas, ni con aumento 
de billares, ni con el aumento de los intercambios culturales 
de artistas que solo promueven el regimen de Castro.
    Interpreter. And we will need to bear in mind that no 
increase in remittances, no increase in the number of trips, no 
increase in the cultural exchanges----
    Mr. Perez. De intercambios culturales. Puede acelerarse el 
proceso de democratizacion de nuestra patria
    Interpreter. Por el aumento, ode que? Remesas. Ah, remesas. 
Si. Can speed up the democratization process in our country.
    Mr. Perez. El acercamiento, las politicas de acercamiento 
con la dictadura, como algunos le llaman al gobierno de la 
Habana, lo que hacen es fortalecer el aparato represivo y 
proteger la impunidad a los agresores de esta violacion.
    Interpreter. What this dictatorship regime does is to 
strengthen the repression and to grant impunity to the people 
that commit these acts of repression.
    Senator Menendez. Let the record reflect that what he said 
was that those policies, the policies that he just described 
before, of remittances, of travel, of acceptance only creates 
an impunity for the regime and allows them to continue their 
oppressive actions.
    Mr. Perez. oYa? Uh-huh. Ha quedado demostrado y ahi esta un 
cubano que hace poco salio de la isla, Normando Hernandez 
Gonzalez, aqui a mi lado tengo a Sara Marta Fonseca Quevedo, de 
que ha quedado demostrado, que los--el acercamiento, o sea, el 
aumento de, de viajes de--tanto de norteamericanos, de cubanos 
a la isla, en nada ha ayudado al proceso democratizador de 
nuestra patria. Esas personas, lamentablemente vienen a Cuba en 
cuestiones ajenas a nuestro quehacer.
    Interpreter. It has been proven that--and for this I have 
my witnesses here, the Cuban that recently left the island, Mr. 
Normando Hernandez Gonzalez, and my colleague here, Sara Marta 
Fonseca Quevedo, that this increase in trips both from North 
America and Cubans themselves have not helped at all with the 
democratic process in our country because they come to our 
country on matters that have nothing to do with what we are 
doing.
    Mr. Perez. Aclaro, que respeto el, el gobierno del senor 
Barack Obama y considero de aunque--de, de que--lo todo lo que 
hace, lo hace con las mejores de las intenciones. Porque es un 
gobierno aliado, tanto el Partido Democrata como el 
Republicano, son partidos aliados a la causa elemental.
    Interpreter. I would like to clarify that I fully respect 
President Barack Obama's administration, and I know that 
everything that they are doing is with their best intentions. 
And both the Democratic and the Republican Parties are allied 
to our cause.
    Mr. Perez. Pero, senores senadores, en los momentos en que
la oposicion aumenta, tanto en el orden cualitativo, como el 
cuantitativo.
    Interpreter. But, Mr. Senators, when the opposition is 
increasing both in qualitative as well as in quantitative 
terms----
    Mr. Perez. En momentos en que se acrecientan las acciones 
de protestas publicas, a lo largo y ancho del pais.
    Interpreter [continuing]. When there is an increase in the 
number of protests all over the country----
    Mr. Perez. Son estos y no otros, los momentos de apoyar, de 
sentar el apoyo a las fuerzas de la resistencia.
    Interpreter [continuing]. This is the time and these are 
the opportunities to support the resistance forces.
    Mr. Perez. A las fuerzas de la resistencia, puesto que la 
fuerza de la resistencia cubana, estan en una batalla frontal 
en las calles, por la libertad, sufriendo golpizas, maltratos, 
asedios a nuestra--a las viviendas, torturas, y todas las 
formas de violaciones sistematicas a los Derechos Humanos.
    Interpreter. This is because the Cuban resistance forces 
are embarked on a battle with the state. We suffer beatings. We 
suffer undue treatment, harassment even in our homes, torture, 
and all kinds of violation of our human rights.
    Mr. Perez. E--el apostol de la independencia de Cuba dijo 
una frase, antes de concluir, porque yo no quiero extenderme, 
porque ya creo que la intervencion de los hermanos que han 
hablado antes que mi, ha sido bastante, suficiente, con precio 
y elemento. Pero, el apostol de la independencia de Cuba, Jose 
Marti dijo una frase--es muy importante--y, es que dijo que la 
liber . . . La verdad es para decirla, no para andar oculta. 
Por lo que considero, que el, el, el visado, la presencia de 
Mariela Castro alli en los Estados Unidos, una funcionaria del 
regimen represor, que va a alli a promover el, el--la tirania 
que oprime, que mata, que hostiga a nuestra patria, constituye 
para nosotros un insulto y una ofensa. Y, es una--y, un asunto 
tambien, teniendose en cuenta que Mariela Castro va a los 
Estados Unidos y se pudiera olvidar y con sugerencias, todo eso 
en su video. Ahi yo preguntaria: oPudieran los opositores de 
Cuba, pudieran los lideres de organizaciones, pudieran los 
lideres de la iniciativa importantes, pudieran visitar el pais 
del norte, alli, visitar alli, exponer su criterio sin regresar 
a la isla con entera libertad? Muchas gracias, senor senador.
    Interpreter. To conclude, because I have already said a lot 
and those who spoke before me have done so very eloquently, 
maybe even so more than me, like Jose Marti said, the truth is 
to be said, not to be hidden.
    And in this regard and in terms of the visas, I find that 
Mariela Castro's visit to the United States, being an official 
of this regime that oppresses, that kills, and that harasses 
the Cuban people, is a complete insult and an utter offense to 
us. Now Mariela Castro is out there visiting the United States, 
and I would like to ask, could we, the opposers in Cuba, the 
leaders of different organizations and different initiatives go 
to the United States and come to the island freely?
    Thank you very much.
    Senator Menendez. Well, thank you all for your testimony.
    Let me observe for the record that the chair is cognizant 
of members of the Castro regime who are here from the Cuban 
Interests Section, taking notes of everything that has been 
said. The chairman fully intends to monitor the rights of these 
three individuals who have spoken and to make sure that they 
are not repressed or face any consequences upon their return to 
their homes.
    And it will be the committee's singular focus, and we will 
certainly ask the United States Government through its 
Interests Section in Cuba to ensure that these individuals, to 
the extent that we have the ability possible, that they do not 
face a reprisal as a result of their testimony here today.
    Now, with that, let me just take a few minutes to take 
advantage of the opportunity to ask some questions.
    Mr. Hernandez, yesterday, before, we had a chance to chat, 
and I found something very interesting, two things very 
interesting in what you said. You said that there was a 
redline, a redline of dissent activity, dissident activity 
which is implicitly tolerated by the regime. But if you cross 
that redline, that was not tolerated by the regime.
    Could you tell us what activity is permitted up to the 
redline and then what happens when you cross the redline?
    Mr. Hernandez. Si, senor Boss Melendez. Todos sabemos que 
el gobierno cubano, hasta cierto punto permite lo que conocemos 
como lucha pacifica no violenta, pasiva.
    [Dial tone sounds.]
    Senator Menendez. Continue.
    Interpreter. Yes, Mr. Senator Menendez, we all know that 
the Cuban Government allows what they call up to a peaceful, 
nonviolent, passive fight.
    Mr. Hernandez. Entre este tipo de lucha no violenta, 
pacifica pasiva, se encuentran, por ejemplo, las personas que 
sacan informacion den . . . desde Cuba hacia al exterior. Pero, 
que no hacen nada mas que eso.
    Interpreter. This peaceful, nonviolent, passive type of 
fight includes the people that send information from Cuba to 
the world, but don't go beyond that.
    Mr. Hernandez. Y, la influencia que tienen para el interior 
de la isla, es muy pequena, es practicamente des--despreciable.
    Interpreter. And the influence that they have within the 
island is very small. It is despicable. oLa influencia que hay 
dentro de la isla?
    Mr. Hernandez. Si. Es como un acuerdo tacito, que ha 
existido durante anos entre la disidencia, la oposicion 
pacifica y el gobierno de los hermanos Castro, el regimen de 
los hermanos Castro.
    Interpreter. This is like an implicit agreement that has 
existed for years between the dissidents, the peaceful 
opposition, and the Castro brothers.
    Mr. Hernandez. Esto no quiere decir que estas personas no 
sean reprimidas. Esto no quiere decir que estas personas no 
sean hostigadas. Esto no quiere decir que estas personas se 
vean en serios problemas con su estabilidad emocional y 
psicologica, y con serios problemas de limitaciones de libertad 
dentro de Cuba.
    Interpreter. This does not mean that these people are not
 repressed, harassed, or have serious problems including 
emotional and psychological stability, and they don't have 
problems within Cuba.
    Senator Menendez. So what happens when you--so those are 
the people who take the information of repression inside of 
Cuba and tell the rest of the world. What is crossing the line? 
What actions cross the line for which you ultimately find 
yourself arrested, incarcerated, and what not?
    Mr. Hernandez. Si. Y, va y va a este punto en estos 
momentos.
    Interpreter. I was getting there.
    Mr. Hernandez. Cruzar la linea roja, es lo que hace Sara 
Marta Fonseca, es lo que hace Jorge Luis Garcia Perez Antunez, 
es lo que hace Jose Daniel Ferrer Garcia. Son lo que hacen las 
personas en Cuba, que luchan de forma frontal contra el regimen 
de los hermanos Castros, ganando espacios de libertades 
publicos.
    Interpreter. Crossing the line is what Sara Marta Fonseca 
or Jose Daniel Ferrer Garcia or Jorge Luis Perez Antunez do, 
which is to engage on a head-on fight with the Castro regime 
and gain public freedom spaces.
    Mr. Hernandez. Es lo que hacen las Damas de Blanco todos 
los domingos.
    Interpreter. It is what the Ladies in White do every 
Sunday.
    Mr. Hernandez. Emocionado me encuentro en estos momentos, 
al ver a Sara Marta Fonseca, una de las victimas de la 
represion cubana, que a diario--para decirlo hasta cierto 
punto--vive de--en un desasosiego.
    Interpreter. I find it very moving to see here Sara Marta 
Fonseca, a victim of the Cuban repression who lives in a 
permanent state of unrest. En un desasosiego.
    Mr. Hernandez. Falta de paz, de tranquilidad.
    Interpreter. OK. OK.
    Mr. Hernandez. Los que se interesan por la realidad de 
Cuba, hemos podido ver los mitines de repudio en su vivienda, 
como ella decia, que se catalogan como terrorismo de estado.
    Interpreter. Those of you who are interested in the Cuban 
current affairs can see the acts of repudiation that took place 
at her home that could be characterized as state terrorism.
    Mr. Hernandez. Lider de una de las manifestaciones mas 
mencionadas en los ultimos tiempos en Cuba, que fue la 
manifestacion que realizo en la escalinata del capitolio en 
Ciudad de La Habana.
    Interpreter. She led one of the protests that has been most 
widely mentioned in Cuba in recent years, which took place on 
the stairs of the capitol building in Havana.
    Senator Menendez. So does crossing the redline then mean 
gaining public space, gaining recognition for your peaceful 
activities inside of Cuba? That is what the regime does not 
permit? That is what gets you arrested?
    Mr. Hernandez. El regimen cubano, lo que no quiere es 
perder espacios. El regimen cubano, lo que no desea, es que la 
disidencia y la oposicion se haga representativa de la 
sociedad. Y, cualquier intento que exista para ganarle espacios 
publicos, cualquier intento que exista para hacerse 
representativo de esta sociedad cubana, el regimen cubano lo 
considera estar del lado alla de la linea roja no permisible.
    Interpreter. Any attempt to gain any kind of public space, 
any kind of activity by the dissidents or the opposition to try 
to get some kind of representation in society, any kind of 
attempt to do this is what the Castro regime does not allow, 
and that constitutes crossing the redline.
    Senator Menendez. So, to summarize, if you are a dissident 
and what you are doing is sending information about what is 
happening inside of Cuba to the rest of the world, you are 
oppressed, but you are not necessarily arrested. If you are a 
dissident, political activist, or independent journalist, and 
seek peaceful movement inside of Cuba internally and promote 
that internally and create the space in which that is known 
internally, that is what likely gets you arrested?
    Mr. Hernandez. Si, hasta cierto punto, si. oPor que digo 
hasta cierto punto? Porque no todo en Cuba es blanco y negro.
    Interpreter. Yes, up to a certain point, it is. And why do 
I say up to a certain point? Because in Cuba, not everything is 
black or white.
    Senator Menendez. Did Laura Pollan, the founder of the 
Damas de Blanco, cross the redline, and did that result in her 
death?
    Mr. Hernandez. Laura Pollan con su liderazgo, logro ocupar 
un espacio publico que no se habia ocupado nunca antes en Cuba.
    Interpreter. Laura Pollan, with her leadership, was able to 
gain a public space and occupy it in a way that had never been 
done before in Cuba.
    Mr. Hernandez. Las marchas de las Damas de Blanco todos los 
domingos por la centrica Quinta Avenida en Ciudad de La Habana, 
ha tenido repercusion nacional y repercusion internacional. Se 
han dado a conocer.
    Interpreter. The marches that take place and that the 
Ladies in White take place in every Sunday downtown Fifth 
Avenue in Havana are being known about nationally and 
internationally. They got the message out.
    Mr. Hernandez. Y, es un ejemplo a imitar, de todas las 
organizaciones y de la sociedad civil cubana. Hay que tomar los 
espacios publicos, porque si no, no seriamos representativos de 
esta sociedad. Hay que buscar la forma de ser representativos 
de la sociedad, para provocar los necesarios cambios.
    Interpreter. And this is a message that we need to send out 
to all of the Cuban people, all of the civil society 
organizations. We need to gain these public spaces. This is the 
only way that we can get the recognition that we need to get to 
the change that we all need.
    Mr. Hernandez. Y, hacer este trabajo, es estar del lado de 
la linea roja que el gobierno no permite.
    Interpreter. But doing so constitutes being on the other 
side of the redline, and that is not allowed by the government.
    Senator Menendez. Finally, before I turn to Senator Rubio, 
to our two witnesses from Havana, I want to ask them, one, we 
have seen a tremendous increase in arrests and detentions in 
Cuba over the last 6 months. What do you believe is the cause 
for that crackdown?
    And second, how can we help you to communicate and spread 
your message, your message for human rights and freedom inside 
of Cuba?
    Mr. Perez. Si, ha, ha habido un aumento vertiginoso de 
represion en los ultimos 6 meses.
    Interpreter. There has been increase in crackdown on 
repression over the past 6 months.
    Mr. Perez. Este aumento de represion, se torna con mas 
sana, con mas violencia.
    Interpreter. This violent--this increasing repression has 
become harsher and more violent.
    Mr. Perez. Pero, si es cierto que ha habido un aumento en 
la represion. Yo creo que mas importante es significar el 
aumento del activismo. Es decir, que paralelo al aumento de la 
represion, ha habido un aumento importante del activismo y de 
la protesta en la calle.
    Interpreter. But even more so important, in addition to 
this increase in repression, there has been an increase in 
activism that took place in parallel to this increase in 
repression, and we see that out on the streets.
    Mr. Perez. Y, en lo que respecta a como ayudar, se puede 
apoyar y ayudar de muchas, de muchas formas. Se puede intentar 
promover lo que esta ocurriendo en, en Cuba por todas partes 
del mundo, llevarles la realidad cubana a cada foro 
internacional, a cada encuentro.
    Interpreter. In terms of helping, well, there is many ways. 
One would be to promote what is going on in Cuba and 
disseminate information all over the world to take it to all of 
the international fora.
    Mr. Perez. Y, en terminos concretos, en este caso podemos 
hablar, por ejemplo, creo que la--fortalecer las emisiones de 
Radio Marti y Radio Republica, serian algo muy importante y 
efectivo.
    Interpreter. And more specifically, to strengthen 
broadcasting from Radio Marti and Radio Republica would be 
extremely important and effective.
    Mr. Perez. Y, a proposito de radio, de Radio Republica, hay 
algo que nos ha preocupado--que preocupa, que preocupa mucho, 
tanto en la resistencia como en las filas de la oposicion. Y, 
es que no, no entendemos como en momentos en que la oposicion 
esta ganando este espacio, en momentos que esta este importante 
despertar.
    Interpreter. And there is in terms of Radio Republica, 
there is a very big concern among the resistance and among the 
opposition, and that is that we don't understand how at this 
time when the opposition is gaining all of these spaces----
    Mr. Perez. No entendemos por--como es posible que el 
gobierno de los Estados Unidos de America, nuestro aliado 
historico en la lucha por la libertad, por ejemplo, le haya 
privado a organizaciones tan importantes, tan cercanas a la 
causa del, del pueblo, del pueblo cubano, de los presos, de los 
familiares, a organizaciones--
el directorio democratico cubano con cede en Miami y plantado 
hasta la libertad y la democracia en Cuba, que han tenido 
tradicionalmente una serie de programas que han contribuido 
importantemente en el fortalecimiento de la, de la oposicion y 
en el apoyo moral y de todo tipo, a lo que en Cuba lucha mucho.
    Interpreter. So we don't understand how is it possible for 
the Government of the United States of America, who has been 
our historical ally in this fight for freedom, how it has 
denied private organizations that have such closeness to us 
that do such important work for the Cuban people, more 
specifically the Cuban Democratic Board, who has programs that 
have contributed to the increase in the opposition.
    Mr. Perez. Creo que en ese tema, creo que he respondido 
mas. oAlguna otra pregunta?
    Senator Menendez. Could you ask him if he was referring to 
Directorio's funds for the purposes of helping inside of Cuba, 
that they have--I understand that they have been ceased?
    Interpreter. oSara Marta quisiera opinar?
    Ms. Fonseca. No, lo mismo que tu.
    Interpreter. oSe esta refiriendo a los fondos del 
directorio destinados al interior de Cuba, que tengo entendido 
fueron incautados?
    Mr. Perez. Me estoy refiriendo a los fondos para el 
Directorio democratico Cubano.
    Interpreter. I am referring to those funds. The funds for 
the Cuban Democratic Board.
    Senator Menendez. Well----
    Mr. Perez. A esos mismos fondos.
    Interpreter. And other organization----
    Mr. Perez. Y, plantados a nuestra libertad a la democracia. 
Organizacion que estaba conformada por ex presos politicos 
veteranos, presos politicos reconocidos, presos politicos que 
han tenido un muy serio y conmovedor trabajo con los familiares 
y con los presos, durante largos anos.
    Interpreter. Y, oque? Plantados. This is an organization 
made up of ex-veterans and political prisoners, as they call 
them, who have done some serious work with their peers and 
their families for years--para la libertad y la democracia.
    Senator Menendez. Well, with my thanks to Sara Marta 
Fonseca, Jorge Luis Perez ``Antunez'' and Jose Daniel Ferrer 
Garcia for coming under very difficult circumstances and for 
once again exhibiting your courage and risking, I understand, 
the potential consequences from being willing to speak the 
truth about your reality and challenges in a simple public 
forum here in the United States via our satellite hookup, with 
enormous respect for your commitment to peacefully creating 
civil society and space inside of Cuba, you have the thanks of 
myself as the chairman, Senator Rubio, and the members of this 
committee.
    Interpreter. Quiero expresarles mi mas profundo 
agradecimiento a Sara Marta Fonseca Quevedo, a Jos . . . Jorge 
Luis Perez Antunez y a Jose Daniel Ferrer Garcia, por haberse 
acercado en circunstancias sumamente dificiles. Y, una vez mas, 
haber mostrado este enorme valor e incluso a . . . arriesgarse 
a las posibles consecuencias que puedan llegar a sufrir. Y, por 
estar dispuestos a hablar de la ver . . . De la verdad, de la 
realidad y los desafios que viven en Cuba. Mis mas profundos 
respetos por su compromiso, de parte mia y de parte del senador 
Rubio, y de todos los aqui presentes.
    Senator Menendez. With that and with our thanks to the U.S. 
Interests Section for facilitating our witnesses' visit and for 
facilitating the ability to communicate here, with our thanks 
to Mr. Hernandez Gonzalez and to all, I think this has been a 
tremendous insight into the realities of life inside of Cuba, 
to the challenges that Cuban citizens face to enjoy the very 
basic fundamental freedoms that we observe here in the United 
States and, for that fact, most of the Western world.
    It is a reality inside of Cuba that one can face 
repression, torture, or imprisonment simply for speaking one's 
mind or simply for coming together in common cause to organize. 
Our witnesses, who have languished in Castro's jails for years, 
are living witnesses to that reality. All the romanticism in 
the world cannot erase the reality that they have spoken of 
today. And so, they have our thanks.
    The record will remain open for 1 week. Any members who 
wish to ask questions may do so.
    Senator Menendez. And with the thanks of the committee, 
this hearing is adjourned.
    [Whereupon, at 1:10 p.m., the hearing was adjourned.]

    Responses of Assistant Secretary Roberta Jacobson to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. ALAN GROSS: During your confirmation hearing last year, 
you pledged to continue to make Alan Gross's release a priority during 
your tenure as Assistant Secretary. How has this commitment 
materialized? What concrete actions have you and your staff taken to 
bring Alan home? Has there been any progress?

    Answer. This administration views securing the immediate release of 
Alan Gross as an urgent priority. From the very beginning of his unjust 
detention, we have been careful to take our cues from, and respect the 
wishes of Mr. Gross's family, who have been deprived of the presence of 
their loving husband, father, and son. Since Mr. Gross's arrest, we 
have used and continue to use every appropriate diplomatic channel to 
press for his release, both publicly and privately. In addition to 
pressing the Cuban Government directly for his release, we have also 
urged governments around the world, prominent figures traveling to 
Cuba, and religious leaders to speak out on behalf of Mr. Gross. We 
strongly believe that Mr. Gross deserves to come home and be with his 
family, and we continue to press the Cuban Government to do the right 
thing and release him.

    Question. HUMANITARIAN GESTURES: I understand that many try to 
equate Alan Gross's imprisonment with that of the so-called Cuban Five. 
I defy this. However, I did note that we recently allowed Rene 
Gonzalez, one of the Cuban Five, to travel from the United States to 
Cuba to visit an ailing relative. As you know, the Gross family has 
been calling for a reciprocal humanitarian gesture which would allow 
Alan to visit his ailing mother and daughter. I firmly believe the 
Cuban authorities should release Alan Gross and call on them to do so 
immediately. Have you discussed this ``humanitarian gesture'' with the 
Cuban authorities? If so, what was their response?

    Answer. The Cuban Government frequently attempts to compare Mr. 
Gross's situation to the cases of the Cuban Five, five intelligence 
agents who were arrested in September 1998 and later convicted of a 
number of crimes in the United States. We do not equate the situations, 
and we continue to call on the Cuban Government to grant the request of 
Alan Gross to travel to the United States to visit his 90-year-old 
mother, Evelyn Gross. She is suffering from inoperable lung cancer and 
cannot, due to her condition, travel to Cuba.
    Regarding Rene Gonzalez's travel to Cuba to visit his seriously ill 
brother, it was a U.S. district court that granted this travel request. 
While Mr. Gross's situation is not comparable to those of the Cuban 
Five in any way, we strongly believe that the Cuban Government missed 
an opportunity to make a reciprocal humanitarian gesture and allow Mr. 
Gross to visit his mother.
    Unfortunately, despite Mr. Gross's compelling humanitarian 
circumstances, the Cuban Government has thus far refused to grant or 
respond to Mr. Gross's request. We continue to press the Cuban 
Government on this issue.

    Question. LEARNING FROM OUR MISTAKES: Obviously, Alan Gross's 
mission, to expand Internet access to the Jewish community in Cuba, was 
a noble one. Yet, it went horribly awry and he and his family are 
suffering the consequences. What types of formal evaluation have 
occurred in the aftermath of Alan's imprisonment that will prevent 
future mistakes of this magnitude and keep hardworking U.S. citizens 
out of harm's way? Have you and your colleagues at USAID analyzed the 
``lessons learned'' from this tragedy and changed standard operating 
procedures for future programs?

    Answer. State and USAID have conducted reviews of all Cuba programs 
and continue to do so on a regular basis. However, carrying out 
democracy assistance programs in authoritarian states such as Cuba 
always carries some degree of risk. All grantees and contractors are 
well aware of such risks.
    Most organizations that carry out programs in Cuba have experience 
working in closed societies. Our grantees are aware of the risks of 
operating in the Cuban environment. We regularly communicate with 
grantees regarding developments on the island.
    During the grant application process, proposals are judged on an 
organization's ability to achieve an objective and on past performance, 
among other criteria. For grantees applying for projects in Cuba, 
proposals that demonstrate a clear understanding of the Cuban context 
and an ability to operate in a restricted environment are generally 
viewed more favorably.
    To minimize the risks associated with carrying out programs in 
Cuba, we encourage grantees to limit travel to Cuba by U.S. citizens 
and permanent residents wherever possible. State and USAID advise 
grantees to carefully select the consultants and personnel they 
contract to implement programs in Cuba.
                                 ______
                                 

    Responses of Assistant Secretary Roberta Jacobson to Questions 
                               Submitted
                         by Senator Marco Rubio

    Question. Secretary Clinton has reaffirmed the U.S.'s commitment to 
global Internet freedom and has made this part of her main platform. In 
a recent speech, she said that ``the defense of a free, open, and 
interconnected Internet is a U.S. foreign policy priority. The State 
Department works to advance Internet freedom as an aspect of the 
universal rights of freedom of expression and the free flow of 
information.''
    Considering the importance of freedom of Internet, can you explain 
what the Department is currently doing to expand Internet freedom in 
the island? Has the State Department allocated any actual funding to 
help increase Internet availability in Cuba? What about connectivity 
within the island?
    Today's hearing is on strengthening civil society in Cuba. Do you 
believe that freedom of the Internet and access to technology should be 
part of our focus in strengthening Cuba's civil society? What is the 
State Department doing to promote Internet freedom and access in Cuba?

    Answer. The United States works to advance Internet freedom for 
people around the world, including in Cuba. Our support for 
strengthening Cuba's civil society includes promoting Internet freedom 
and access to information and technology.
    In April 2009, the President directed the Departments of State, 
Treasury, and Commerce to take certain steps to increase the flow of 
information to the Cuban people. In response, the Treasury Department's 
Office of Foreign Assets Control (OFAC) made certain changes to its 
licensing policy, as reflected in the Cuban Assets Control Regulations 
(CACR), 31 CFR. 515. Among other changes, OFAC created a general 
license, authorizing transactions incident to the establishment of 
facilities to provide telecommunications services linking the United 
States and Cuba, including but not limited to fiber optic cable and 
satellite telecommunications facilities. Access to a freer flow of 
information will provide the Cuban people, including democracy 
activists and civil society, with information and tools that better 
prepare them to freely determine their own future and support 
communication between Cuba and the outside world.
    OFAC also created a general license authorizing contracts with non-
Cuban telecommunications providers for telecommunications services 
provided to particular individuals in Cuba, provided that such 
individuals in Cuba are not prohibited officials of the Cuban 
Government or Cuban Communist Party as defined in the CACR. This move 
allows personal Internet communications service providers to reinstate 
services that some providers had terminated out of a desire to avoid a 
violation of U.S. sanctions against Cuba.
    The purpose of U.S. democracy programs in Cuba is to increase the 
free flow of information to, from, and within Cuba. Our U.S. Interests 
Section in Havana offers free high-speed, uncensored Internet access 
stations to the public, a popular service that generates more than 
28,800 user hours per year. USINT also offers distance learning and 
other training to the Cuban public on information technology, Internet 
usage, social media, and online journalism to enable and support the 
free flow of information. The FY 2011 Congressional Notification for 
the Cuba Economic Support Funds outlines proposals to encourage the 
application of innovative technology to increase interconnectivity 
among civil society actors, to facilitate the flow of uncensored 
information, and to study ways to expand Internet access and 
connectivity within the island. These proposals also support using 
information communications technology to tackle pressing issues in 
Cuba, such as documenting and publicizing human rights abuses, cyber 
security, impunity, and corruption.
    The United States supports Internet freedom for Cubans, as the free 
flow of information empowers individuals and strengthens civil society. 
We will continue to explore new technologies that hold the prospect of 
making uncensored Internet access a reality for the Cuban public in 
general.

    Question. The State Department gave a visa to Raul Castro's 
daughter, Mariela, to speak at conferences in San Francisco and New 
York. Any nonseasoned Cuba observer knows that Mariela is currently the 
highest-profile spokesperson for her family dictatorship. She's been 
traveling the world defending her family's rule, insulting dissidents 
(calling them ``despicable parasites'') and justifying the arbitrary 
taking of an American hostage.
    Why would the State Department, despite the current visa ban on 
senior level Communist Party officials, grant an exception to Mariela 
Castro for this visit, where she predictably insulted my constituents 
and sought to discredit Cuba's courageous dissidents?
    Shouldn't the United States have been denying visas to these 
spokespersons of the regime until democracy activists are allowed equal 
time, and until American hostage, Alan Gross, is given an exit visa to 
come home to his family?

    Answer. As Director of the Cuban National Center for Sex Education, 
Mariela Castro Espin was invited to attend the 30th International 
Congress of the Latin American Studies Association (LASA) in San 
Francisco and to speak on Lesbian, Gay, Bisexual, and Transgender 
rights in California and New York. She last visited the United States 
in 2002, during the Bush administration.
    We cannot discuss specific details about Mariela Castro's 
individual case because visa records are confidential under Federal 
law. However, the State Department places the highest priority on 
security and compliance with U.S. law and regulations when adjudicating 
visas applications.
    Presidential Proclamation 5377 of October 4, 1985, and other 
applicable policies and requirements are duly considered in the 
adjudication of visa applications submitted by Cuban nationals. 
Presidential Proclamation 5377 suspends entry into the United States of 
certain employees and officers of the Government of Cuba and the 
Communist Party. However, the Proclamation does not contain a blanket 
prohibition on issuing visas to Government and Party officials and 
employees. For example, the Proclamation allows entry of Cuban 
officials to conduct official business at the Cuban Interests Section 
and the Cuban U.N. mission. Moreover, under section 2(c) of the 
Proclamation, the Secretary of State may designate certain cases or 
categories of cases to which the suspension does not apply. Secretaries 
have from time to time made such designations, including a 1999 
designation that had the effect of focusing the Proclamation's 
application mainly on high-level government and Party officials, 
including the Cuban President and Vice President, the National Assembly 
President and Vice President; Politburo members; certain high-level 
Communist Party officials; and senior military, intelligence, and 
police officials. In light of the 1999 designation, Mariela Castro's 
visa request did not fall into any of the categories to which the 
Proclamation still effectively applies.
    We condemn her comments concerning brave dissidents in Cuba and her 
statements defending the indefensible imprisonment of Alan Gross. The 
administration is strongly committed to supporting the promotion of 
human rights and respect for fundamental freedoms in Cuba, as well as 
free flow of information to, from, and within Cuba. Unlike the Cuban 
Government, we respect the freedom of speech and are not threatened by 
viewpoints with which we disagree.
    In regard to Alan Gross, we have used, and continue to use, every 
appropriate diplomatic channel to press for Mr. Gross' release, both 
publicly and privately. We have urged governments around the world, 
prominent figures traveling to Cuba, and religious leaders to press for 
Gross' immediate release. We have made clear that he was, as the Cuban 
Government appears to admit, simply assisting Cuban citizens to secure 
Internet access. We have made clear that we will not accept any effort 
to equate him or his efforts with those of Cuban intelligence officers 
who were duly convicted of espionage, conspiracy to commit murder, and 
other crimes. We continue to work to free Mr. Gross so that he may be 
reunited with his family.

    Question. There's a long history of physical and psychological 
intimidation and harassment by Castro regime officials toward U.S. 
diplomats stationed at the U.S. Interests Section in Havana. Recently, 
The Miami Herald reported that the Cuban regime has heightened its 
harassment of our diplomats and tightened travel restrictions, so they 
cannot leave Havana. Thus, obviously, the Castro regime is not 
reciprocating the goodwill of the State Department in granting numerous 
visas to Castro regime officials and letting them roam freely 
throughout the United States.
    Can you share with me what the State Department position is with 
regard to this? Are we implementing security measures to avoid the 
harassment of our diplomats?

    Answer. We have been concerned for some time and strongly condemn 
the ongoing Cuban Government harassment of our personnel in Havana, who 
are often publicly criticized in Cuban state-run media for conducting 
their normal activities. The U.S. Interests Section regularly, as a 
matter of policy, engages with the broadest group of Cubans--including 
democracy activists and human rights defenders--to learn from their 
perspectives and to promote further cultural understanding, especially 
on the topics of democracy, fundamental freedoms, and human rights. 
USINT has encouraged and will continue to encourage other countries' 
missions and diplomats and the media to focus on human rights 
conditions in Cuba. U.S. personnel perform their professional duties 
and carry out their challenging assignments in this restrictive 
environment despite the risks and harassment. We regularly encourage 
all members of USINT staff to report any acts of harassment so that we 
can promptly register our objections directly with Cuban authorities.
    In 2002, the Cuban Government imposed travel restrictions on USINT 
officials limiting their travel within Havana province. Current 
restrictions on travel outside Havana hamper our ability to fully carry 
out our obligations under the Migration Accords and other core 
activities, including protection of U.S. citizens in Cuba. The 
restrictions also severely limit contact by USINT personnel with all 
but a small number of Cubans outside of Havana. The State Department 
has implemented reciprocal travel restrictions on CUBUN officials to 
within a 25-mile perimeter of New York City, and CUBINT officials 
within the Capital Beltway perimeter of Washington, DC, absent specific 
permission by the Department on a case-by-case basis to travel outside 
these perimeters, for example, to conduct consular visits to Cubans 
incarcerated in the United States.
    Our Diplomatic Security (DS) staff is dedicated to providing a 
secure living and working environment for our personnel in Havana, 24 
hours a day, 7 days a week. They are responsible for developing and 
implementing security policies and programs that provide for the 
protection of all U.S. Government personnel on official duty within 
Havana and their accompanying dependents.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
